N o.
IN T H E

S u pre me C o urt of t he U nite d St ate s
S

H

H AS E

O WS E

,
P etiti o n e r,

v.
T

H O M AS

C

C

H

O D O US

, IN

DI VI D U A L L Y A N D I N

A P A CI T Y A S A N

L E V EL A N D

A N DI N

H

IS
T

E

MPL OY E E OF T H E

H
C

IS

O

F FI CI A L

IT Y OF

, O HI O ; B RI A N M I D D A U G H, I N DI VI D U A L L
O F FI CI A L C A P A CI T Y A S A N E M P L O Y E E O F
H E C I T Y O F C L E V E L A N D , O HI O ,

Y

R e s p o n d e nt s.
O

N

P

E TI TI O N F O R A

U

NI T E D

S

W

T A T ES

C

RI T O F

C

E R TI O R A RI T O T H E

O U R T O F

F O R T H ES I X T H

C

A

P P E A LS

I R C UI T

P E TI TI O N F O R A W RI T O F C E R TI O R A RI
S

A. I F I L L
J A M E S L. H A R D I M A N , E S Q
Di r e ct o r- C o u n s el
3 6 1 5 S u p e ri o r A v e n u e,
J A N A I S. N E L S O N
St e. 3 1 0 1- D
S A M U E L S PI T A L *
Cl e v el a n d, O hi o 4 4 1 4 4
N A A C P L E GAL D EFE NSE &
E D U C A T I O N A L F U N D , I N C . C o u n s el f o r P etiti o n e r
4 0 R e ct o r St., 5t h Fl o o r
* C o u n s el of R e c o r d
N e w Y o r k, N Y 1 0 0 0 6
A d di ti o n al c o u n s el o n
( 2 1 2) 9 6 5- 2 2 0 0
b ac k c o ver
H E R RI L Y N

C H RI S T O P H E R K E M MI T T
M A H O G A N E D. R E E D
N A A C P L E GAL D EFE NSE &
E D U C A TI O N A L F U N D , I N C .
7 0 0 1 4t h St., N W, St e 6 0 0
W a s hi n gt o n, D C 2 0 0 0 5
( 2 0 2) 6 8 2- 1 3 0 0
A d mi s si o n P e n di n g
C o u n s el f o r P etiti o n e r

i
Q U E S TI O N S P R E S E N T E D
1. W h et h e r t h e l a w i s cl e a rl y e st a bli s h e d t h at a n
offi c e r c a n n ot a r r e st a p e r s o n w h o m t h e offi c e r
h a s n o r e a s o n t o b eli e v e c o m mitt e d a c ri m e,
t a c kl e hi m t o eff e ct t h e a r r e st, a n d t h e n st ri k e
hi m i n t h e n e c k w h e n h e p o s e s n o t h r e at t o
a n y o n e’ s s af et y.
2. W h et h e r a F o u rt h A m e n d m e nt
m ali ci o u s
p r o s e c uti o n cl ai m m u st b e di s mi s s e d si m pl y
b e c a u s e o n e of m ulti pl e u n d e rl yi n g c h a r g e s i s
s u p p o rt e d b y p r o b a bl e c a u s e.

ii
P A R TI E S T O T H E P R O C E E DI N G S B E L O W
T h e p a rti e s t o t h e p r o c e e di n g s b el o
P etiti o n e r S h a s e
H o w s e;
R e s p o n d e nt s
H o d o u s a n d B ri a n Mi d d a u g h; D ef e n d a nt Cit y of Cl e v el a n d, O hi o; a n d D ef e n d a nt J o h n

w w er e
T ho m as
A p p ell e e
D o e.

iii
T A B L E O F C O N T E N TS

P a g e( s)

Q U E S T I O N S P R E S E N T E D ........................................ i
P A R T I E S T O T H E P R O C E E D I N G S B E L O W ...........ii
T A B L E O F A U T H O RI T I E S ....................................... vi
P E T I T I O N F O R W R I T O F C E R T I O R A R I ................. 1
O P I N I O N S A N D O R D E R S B E L O W .......................... 1
J U R I S D I C TI O N .......................................................... 1
R E L E V A N T C O N S TI T U TI O N A L A N D
S T A T U T O R Y P R O V I S I O N S .................. 2
S T A T E M E N T .............................................................. 3
I.

D et e cti v e Mi d d a u g h U nl a wf ull y A r r e st s a n d
A s s a ult s M r. H o w s e. ......................................... 4

I I.

T h e Di st ri ct C o u rt G r a nt s S u m m a r y
J u d g m e nt f o r t h e D et e cti v e s, a Di vi d e d P a n el
of t h e Si xt h Ci r c uit Affi r m s, a n d t h e Si xt h
Ci r c uit D e ni e s R e h e a ri n g o v e r t h e Di s s e nt of
F o u r J u d g e s ...................................................... 7

R E A S O N S F O R G R A N T I N G T H E P E TI T I O N ....... 1 2
I.

T h e Si xt h Ci r c uit’ s Q u alifi e d I m m u nit y R uli n g
C o nt r a di ct s t hi s C o u rt’ s P r e c e d e nt a n d
C r e at e s a Ci r c uit S plit. ................................... 1 2
A.

T h e D e ci si o n B el o w F ail s t o A p pl y t h e
G o v e r ni n g L e g al R ul e t h at i n Q u alifi e d
I m m u nit y C a s e s, a s i n Ot h e r C a s e s, t h e
S u m m a r y J u d g m e nt R e c o r d M u st B e

iv
Vi e w e d i n t h e Li g ht M u st F a v o r a bl e t o
t h e N o n m o v a nt ...................................... 1 5
B.

I I.

T h e D e ci si o n B el o w F ail s t o A p pl y t h e
G o v e r ni n g L e g al R ul e t h at G e n e r al
St at e m e nt s of t h e L a w P r o vi d e Cl e a r
N oti c e of F o u rt h A m e n d m e nt Vi ol ati o n s
i n O b vi o u s C a s e s ................................... 2 0
T h e Si xt h Ci r c uit’ s M ali ci o u s P r o s e c uti o n
R uli n g C o nt r a v e n e s t hi s C o u rt’ s P r e c e d e nt
a n d C r e at e s a Ci r c uit S plit. ............................ 2 6

A.

T h e D e ci si o n B el o w C r e at e s a Ci r c uit
S plit o n W h et h e r t h e E xi st e n c e of
P r o b a bl e C a u s e t o S u p p o rt O n e of
M ulti pl e C h a r g e s P r e cl u d e s a Pl ai ntiff
f r o m P u r s ui n g a M ali ci o u s P r o s e c uti o n
Cl ai m f o r t h e R e m ai ni n g C h a r g e s ........ 2 8

B.

T h e D e ci si o n B el o w C o nt r a di ct s T hi s
C o u rt’ s Diff e r e nti al T r e at m e nt of
M ali ci o u s P r o s e c uti o n a n d F al s e A r r e st
Cl ai m s .................................................... 3 4

C O N C L U S I O N .......................................................... 3 6
A p p e n di x A O pi ni o n a n d J u d g m e nt i n t h e U nit e d
St at e s C o u rt of A p p e al s f o r t h e Si xt h
Ci r c uit ( M a r c h 1 8, 2 0 2 0) ................ A p p. 1
A p p e n di x B M e m o r a n d u m O pi ni o n i n t h e
U nit e d St at e s Di st ri ct C o u rt f o r t h e
N o rt h e r n Di st ri ct of O hi o E a st e r n
Di vi si o n ( A p ril 1 5, 2 0 1 9) ........... A p p. 3 1

v
A p p e n di x C O r d e r D e n yi n g P etiti o n f o r R e h e a ri n g
E n B a n c i n t h e U nit e d St at e s C o u rt of
A p p e al s f o r t h e F o u rt h Ci r c uit
( J u n e 8, 2 0 2 0) ............................... A p p. 6 4

vi
T A B L E O F A U T H O RI TI E S

P a g e( s)

C as es
Al b ri g ht v. Oli v e r ,
5 1 0 U. S. 2 6 6 ( 1 9 9 4) ( p e r c u ri a m) ......................... 2 5
Bl a n k e n h o r n v. Cit y of O r a n g e ,
4 8 5 F. 3 d 4 6 3 ( 2 0 0 7) .............................................. 2 4
B o v at v. V e r m o nt ,
_ _ S. Ct. _ _ ( 2 0 2 0) ................................................. 1 8
B r o w n v. T e x a s ,
4 4 3 U. S. 4 7 ( 1 9 7 9) .......................................... 1 2 , 2 1
C a s e y v. Cit y of F e d e r al H ei g ht s ,
5 0 9 F. 3 d 1 2 7 8 ( 1 0t h Ci r. 2 0 0 7) ............................ 2 4
Cit y of I n di a n a p oli s v. E d m o n d ,
5 3 1 U. S. 3 2 ( 2 0 0 0) .......................................... 1 7 , 2 1
C olli n s v. D o yl e ,
2 0 9 F. 3 d 7 1 9 ( 5t h Ci r. 2 0 0 0) ................................ 3 2
D e v e n p e c k v. Alf o r d ,
5 4 3 U. S. 1 4 6 ( 2 0 0 4) .............................................. 3 4
Di st ri ct of C ol u m bi a v. W e s b y ,
1 3 8 S. Ct. 5 7 7 ( 2 0 1 8) ...................................... 1 3 , 2 0
El -G h a z z a w y v. B et hi a u m e ,
6 3 6 F. 3 d 4 5 2 ( 8t h Ci r. 2 0 1 1) ................................ 1 8

vii
El m o r e v. F ult o n C o u nt y S c h o ol Di st. ,
6 0 5 F. A p p’ x. 9 0 6 ( 1 1t h Ci r. 2 0 1 5) ....................... 3 0
G r a h a m v. C o n n o r ,
4 9 0 U. S. 3 8 6 ( 1 9 8 9) ...................................... p a s si m
H a r ri n gt o n v. Cit y of C o u n cil Bl uff s,
I o w a,
6 7 8 F. 3 d 6 7 6 ( 8t h Ci r. 2 0 1 2) ................................ 3 2
H e c k v. H u m p h r e y ,
5 1 2 U. S. 4 7 7 ( 1 9 9 4) .............................................. 3 3
H ol m e s v. Vill a g e of H off m a n E st at e ,
5 1 1 F. 3 d 6 7 3 ( 7t h Ci r. 2 0 0 7) .............. 2 6 , 2 9 , 3 0 , 3 4
H o w s e v. H o d o u s ,
9 6 0 F. 3 d 9 0 5 ( 6t h Ci r. 2 0 2 0) .................................. 1
H o w s e v. H o d o u s ,
N o. 1: 1 7 C V 1 7 1 4, 2 0 1 9 W L 1 5 0 9 1 3 9
( N. D. O hi o A p r. 5, 2 0 1 9) ........................................ 1
J o h n s o n v. K n o r r ,
4 7 7 F. 3 d 7 5 ( 3 d Ci r. 2 0 0 7) ................. 2 6 , 2 8 , 2 9 , 3 4
L a s sit e r v. Cit y of B r e m e rt o n ,
5 5 6 F. 3 d 1 0 4 9 ( 9t h Ci r. 2 0 0 9) .............................. 3 0
L u n d st r o m v. R o m e r o ,
6 1 6 F. 3 d 1 1 0 8 ( 1 0t h Ci r. 2 0 1 0) ............................ 1 8
M a n u el v. Cit y of J oli et, Ill. ,
1 3 7 S. Ct. 9 1 1 ( 2 0 1 7) ............................................ 2 5

viii
M a r yl a n d v. P ri n gl e ,
5 4 0 U. S. 3 6 6 ( 2 0 0 3) .............................................. 2 1
M e n d o n c a v. Cit y of P r o vi d e n c e ,
1 7 0 F. S u p p. 3 d 2 9 0 ( D. R. I. M a r. 1 5,
2 0 0 6) ..................................................................... 3 0
Mill e r v. S pi e r s ,
3 3 9 F. A p p’ x 8 6 2 ( 1 0t h Ci r. 2 0 0 9) ........................ 3 1
M o r ri s v. N o e ,
6 7 2 F. 3 d 1 1 8 5 ( 2 0 1 2) ............................................ 2 4
P a yt o n v. N e w Y o r k ,
4 4 5 U. S. 5 7 3 ( 1 9 8 0) .............................................. 1 8
P o s r v. D o h e rt y ,
9 4 4 F. 2 d 9 1 ( 2 d Ci r. 1 9 9 1) ................. 2 6 , 2 7 , 2 8 , 3 4
R ai c h e v. Pi et r o s ki ,
6 2 3 F. 3 d 3 0 ( 2 0 1 0) ................................................ 2 3
Ri v e r a -M a r c a n o v. N o r m e at R o y al D a n e
Q u alit y ,
9 9 8 F. 2 d 3 4 ( 1 st Ci r. 1 9 9 3) .................................. 3 0
S al a z a r -Li m o n v. Cit y of H o u st o n ,
1 3 7 S. Ct. 1 2 7 7 ( 2 0 1 7) .............................. 1 4 , 1 9 , 2 5
S y k e s v. A n d e r s o n ,
6 2 5 F. 3 d 2 9 4 ( 6t h Ci r. 2 0 1 0) ................................ 2 5
T e n n e s s e e v. G a r n e r ,
4 7 1 U. S. 1 ( 1 9 8 5) ............................................ 1 3 , 2 2

ix
T e r r y v. O hi o ,
3 9 2 U. S. 1 ( 1 9 6 8) ...................................... 1 7 , 1 8 , 2 1
T ol a n v. C ott o n ,
5 7 2 U. S. 6 5 0 ( 2 0 1 4) ( p e r c u ri a m) ................. p a s si m
U b o h v. R e n o ,
1 4 1 F. 3 d 1 0 0 0 ( 1 1t h Ci r. 1 9 9 8) ...................... 2 6 , 3 0
V a n D e W e g h e v. C h a m b e r s ,
5 6 9 F. A p p’ x 6 1 7 ( 1 0t h Ci r. 2 0 1 4) ........................ 3 1
W all a c e v. K at o ,
5 8 9 U. S. 3 8 4 ( 2 0 0 7) ............................ 2 6 , 3 2 , 3 3 , 3 4
W hit e v. P a ul y ,
1 3 7 S. Ct. 5 4 8 ( 2 0 1 7) .................................... p a s si m
C o n s ti t u ti o n al P r o vi si o n s
U. S. C o n st. a m e n d. I V ................................................. 2
F e d e r al S t a t u t e s
2 8 U. S. C. § 1 2 5 4 .......................................................... 1
4 2 U. S. C. § 1 9 8 3 .......................................................... 2
St at e St at ut e s
O hi o R e v. C o d e A n n. § 2 9 2 1. 3 1( a) ............................ 1 0
R ul e s
F e d. R. Ci v. P. 5 6 ....................................................... 1 2

1
P E TI TI O N F O R W RI T O F C E R TI O R A RI
P etiti o n e r S h a s e E. H o w s e p r a y s t h at a w rit of
c e rti o r a ri b e g r a nt e d t o r e vi e w t h e j u d g m e nt of t h e
U nit e d St at e s C o u rt of A p p e al s f o r t h e Si xt h Ci r c uit.
O PI NI O N S A N D O R D E R S B E L O W
T h e o pi ni o n of t h e U nit e d St at e s C o u rt of
A p p e al s f o r t h e Si xt h Ci r c uit , H o w s e v. H o d o u s , 95 3
F. 3 d 4 0 2 ( 6t h Ci r. 2 0 2 0), affi r m i n g t h e j u d g m e nt of t h e
di st ri ct c o u rt, i s r e p r o d u c e d at A p p e n di x A, A p p. 1 –3 0 .
T h e o pi ni o n of t h e U nit e d St at e s Di st ri ct C o u rt f o r t h e
N o rt h e r n Di st ri ct of O hi o, H o w s e v. H o d o u s , N o. 1: 1 7
C V 1 7 1 4, 2 0 1 9 W L 1 5 0 9 1 3 9 ( N. D. O hi o A p r. 5, 2 0 1 9),
g r a nt i n g s u m m a r y j u d g m e nt t o t h e R e s p o n d e nt s , i s
r e p r o d u c e d at A p p e n di x B, A p p. 3 1 – 6 3 . T h e o r d e r of
t h e U nit e d St at e s C o u rt of A p p e al s f o r t h e Si xt h
Ci r c uit d e n yi n g r e h e a ri n g e n b a n c, H o w s e v. H o d o u s ,
9 6 0 F. 3 d 9 0 5 ( 6t h Ci r. 2 0 2 0), i s r e p r o d u c e d at
A p p e n di x C, A p p. 5 8 – 6 2 .
J U RI S DI C TI O N
T h e U nit e d St at e s C o u rt of A p p e al s f o r t h e
Si xt h Ci r c uit e nt e r e d it s j u d g m e nt a n d o pi ni o n o n
M a r c h 1 8 , 2 0 2 0. A p p. 1. T h at c o u rt d e ni e d a ti m el y
p etiti o n f o r r e h e a ri n g e n b a n c o n J u n e 8, 2 0 2 0. A p p.
6 4 . T hi s C o u rt h a s j u ri s di cti o n u n d e r 2 8 U. S. C. § 1 2 5 4.

2
R E L E V A N T C O N S TI T U TI O N A L A N D
S T A T U T O R Y P R O VI SI O N S
U. S. C o n s t. A m e n d I V
T h e ri g ht of t h e p e o pl e t o b e s e c u r e i n t h ei r
p e r s o n s, h o u s e s, p a p e r s, a n d eff e ct s, a g ai n st
u n r e a s o n a bl e s e a r c h e s a n d s ei z u r e s, s h all n ot b e
vi ol at e d, a n d n o W a r r a nt s s h all i s s u e, b ut u p o n
p r o b a bl e c a u s e, s u p p o rt e d b y O at h o r affi r m ati o n, a n d
p a rti c ul a rl y d e s c ri bi n g t h e pl a c e t o b e s e a r c h e d, a n d
t h e p e r s o n s o r t hi n g s t o b e s ei z e d.
4 2 U. S. C. § 1 9 8 3
E v e r y p e r s o n w h o, u n d e r c ol o r of a n y st at ut e,
o r di n a n c e, r e g ul ati o n, c u st o m, o r u s a g e, of a n y St at e
o r T e r rit o r y o r t h e Di st ri ct of C ol u m bi a, s u bj e ct s, o r
c a u s e s t o b e s u bj e ct e d, a n y citi z e n of t h e U nit e d St at e s
o r ot h e r p e r s o n wit hi n t h e j u ri s di cti o n t h e r e of t o t h e
d e p ri v ati o n of a n y ri g ht s, p ri vil e g e s, o r i m m u niti e s
s e c u r e d b y t h e C o n stit uti o n a n d l a w s, s h all b e li a bl e
t o t h e p a rt y i nj u r e d i n a n a cti o n at l a w, s uit i n e q uit y,
o r ot h e r p r o p e r p r o c e e di n g f o r r e d r e s s . . . .

3
S T A T E M E N T
At s u m m a r y j u d g m e nt, P etiti o n e r S h a s e H o w s e
p r e s e nt e d e vi d e n c e t h at a s M r. H o w s e w a s e nt e ri n g
hi s h o m e, a pl ai n cl ot h e s p oli c e offi c e r a p p r o a c h e d hi m,
t ol d hi m h e w a s g oi n g t o j ail , a n d t h r e w hi m t o t h e
g r o u n d . M r. H o w s e h a d d o n e n ot hi n g ill e g al, a n d t h e
offi c e r h a d n o r e a s o n t o s u s p e ct ot h e r wi s e . I n t h e
c o u r s e of h a n d c uffi n g M r. H o w s e, t h e offi c e r st r u c k
hi m i n t h e b a c k of t h e n e c k, c a u si n g hi s f a c e t o hit t h e
f r o nt p o r c h, e v e n t h o u g h M r. H o w s e h a d d o n e n ot hi n g
t o t h r e at e n t h e offi c e r. T h e offi c e r’ s c o n d u ct pl ai nl y
vi ol at e d t h e F o u rt h A m e n d m e nt’ s p r o hi biti o n a g ai n st
u n r e a s o n a bl e s ei z u r e, b ot h b e c a u s e t h e i niti al s ei z u r e
w a s u nl a wf ul a n d b e c a u s e t h e offi c e r u s e d e x c e s si v e
f o r c e i n effe ct u a ti n g it. A di vi d e d p a n el of t h e Si xt h
Ci r c uit n o n et h el e s s g r a nt e d t h e offi c e r q u alifi e d
i m m u nit y. I n s o d oi n g, it m a d e t h e v e r y e r r o r t h at t hi s
C o u rt r e c o g ni z e d a s w a r r a nti n g s u m m a r y r e v e r s al i n
T ol a n v. C ott o n , 5 7 2 U. S. 6 5 0, 6 5 6 ( 2 0 1 4) ( p e r c u ri a m):
d efi ni n g t h e c o nt e xt of t h e cl e a rl y e st a bli s h e d l a w
i n q ui r y i n a w a y t h at f ail e d t o c o n si d e r all of t h e
e vi d e n c e p r e s e nt e d b y t h e n o n m o v a nt. T h e m aj o rit y
c o m p o u n d e d t h at e r r o r b y c o n cl u di n g t h e offi c e r w a s
e ntitl e d t o s u m m a r y j u d g m e nt b e c a u s e M r. H o w s e di d
n ot i d e ntif y a p ri o r c a s e wit h si mil a r f a ct s . T h e
m aj o rit y f aile d e v e n t o c o n si d e r t hi s C o u rt’ s p r e c e d e nt
r e c o g ni zi n g t h at p ri o r c a s e s wit h si mil a r f a ct s a r e n ot
n e c e s s a r y w h e n t h e c o n stit uti o n al vi ol ati o n i s
o b vi o u s.
Aft e r M r. H o w s e w a s a r r e st e d i n t h e a b s e n c e of
p r o b a bl e c a u s e, h e w a s c h a r g e d wit h t h r e e off e n s e s —
t w o f el o n y a s s a ult s a n d o n e mi s d e m e a n o r c h a r g e f o r
o b st r u cti n g offi ci al b u si n e s s. All t h r e e c h a r g e s w e r e

4
di s mi s s e d. Y et, t h e m aj o rit y b el o w c o n cl u d e d h e c o ul d
n ot m ai nt ai n a m ali ci o u s p r o s e c uti o n cl ai m wit h
r e s p e ct t o a n y of t h e t h r e e c h a r g e s b a s e d s ol el y o n t h e
f a ct t h at (i n it s vi e w) t h e r e w a s p r o b a bl e c a u s e t o
s u p p o rt t h e mi s d e m e a n o r c h a r g e. I n s o d oi n g, t h e
m aj o rit y c o m p a r e d m ali ci o u s p r o s e c uti o n cl ai m s t o
f al s e a r r e st cl ai m s, n ot wit h st a n di n g t hi s C o u rt’ s cl e a r
i n st r u cti o n t h at t h o s e cl ai m s a r e e nti r el y di sti n ct.
T h at d e ci si o n al s o c r e at e d a cl e a r s plit of a ut h o rit y
wit h s e v e r al ot h e r ci r c uit s.
T h e d e ci si o n b el o w r e p r e s e nt s a d e p a rt u r e f r o m
t hi s C o u rt’ s p r e c e d e nt a n d c r e at e s a ci r c uit s plit o n
t w o i m p o rt a nt i s s u e s of f e d e r al l a w. It p r e s e nt s t h e
C o u rt wit h a n i m p o rt a nt o p p o rt u nit y t o r e affi r m it s
c o m mit m e nt
to
t he
F o u rt h
A m e n d m e nt’ s
f u n d a m e nt al
p r ot e cti o n s
a g ai n st
g o v e r n m e nt
mi s c o n d u ct t h at i n v a d e s a p e r s o n’ s li b e rt y, e s p e ci all y
w h e n e nt e ri n g t h ei r o w n h o m e. C e rti o r a ri s h o ul d b e
g r a nt e d.
I.

D e t e c ti v e
Mi d d a u g h
U nl a wf ull y
A r r e s t s a n d A s s a ul t s M r. H o w s e.

O n t h e e v e ni n g of J ul y 2 8, 2 0 1 6, t h e n-2 0 -y e a r ol d S h a s e H o w s e w al k e d u p t h e st e p s of hi s f r o nt
p o r c h. A s h e c r o s s e d t h e p o r c h, h e fi s h e d hi s k e y s f r o m
hi s p o c k et w hil e c h atti n g o n t h e p h o n e wit h hi s
m o t h e r. A p p. 3 3. H e r e a c h e d t h e f r o nt d o o r a n d p ut
hi s k e y i n t h e l o c k w h e n a n u n m a r k e d c a r st o p p e d i n
f r o nt of hi s h o u s e. I d . A m a n i n t h e p a s s e n g e r s e at
a s k e d M r. H o w s e w h et h e r h e li v e d t h e r e. T h e m a n
w a s w hit e; M r. H o w s e is Bl a c k. M r. H o w s e r e pli e d
t r ut hf ull y , “ Y e s, t hi s i s m y h o u s e, I li v e h e r e .” I d . T h e
c a r b e g a n t o d ri v e a w a y w h e n M r. H o w s e n oti c e d t h e

5
f r o nt p a s s e n g e r s a yi n g s o m et hi n g t o t h e d ri v e r. I d .
Aft e r t h e t w o m e n e x c h a n g e d w o r d s, t h e c a r b a c k e d
d o w n t h e st r e et t o M r. H o w s e’ s h o m e. I d .
T h e f r o nt p a s s e n g e r d e m a n d e d a g ai n t h at M r.
H o w s e t ell hi m w h et h e r h e li v e d t h e r e. F r u st r at e d,
M r. H o w s e r e pli e d, “ Y e s, t hi s i s m y h o m e. W h at t h e
f u c k ?” I d . I n r e s p o n s e, t h e m a n — w h o w a s 5’ 1 1” a n d
w ei g h e d 2 2 0 p o u n d s — g ot o ut of hi s c a r a n d t ol d M r.
H o w s e — w h o i s 5’ 6” a n d w ei g h s 1 4 0 p o u n d s— “ y o u
h a v e a s m a rt m o ut h a n d a b a d attit u d e.” A p p. 3 4 , R O A
1 3 9 . T w o ot h e r m e n, b ot h l a r g e r t h a n M r. H o w s e,
f oll o w e d t h e fi r st m a n o ut of t h e c a r. A p p. 3 1 , R O A
165.
T h e m a n f r o m t h e p a s s e n g e r s e at “ c o nti n u e d t o
m a k e r ef e r e n c e t o [ M r. H o w s e’ s] s m a rt m o ut h” a n d
a s k e d hi m f o r a t hi r d ti m e, “ a r e y o u s u r e y o u li v e
h e r e ?” A p p . 3 1, R O A 4 1 1. M r. H o w s e r e pli e d, “ y e s, I
li v e h e r e. I li v e h e r e.” A p p. 1 7, R O A 4 1 1 . Alt h o u g h M r.
H o w s e h a d a n I D i n hi s p o c k et t h at s h o w e d h e li v e d
i n t h e h o u s e, t h e m a n n e v e r r e q u e st e d it. A p p. 3 5.
I n st e a d, t h e m a n w al k e d u p t o M r. H o w s e, w h o w a s
still o n t h e p h o n e wit h hi s m ot h e r, a n d t ol d hi m t o p ut
hi s h a n d s b e hi n d hi s b a c k b e c a u s e h e w a s g oi n g t o j ail.
A p p. 3, 1 7, 3 1 .
M r. H o w s e r e s p o n d e d b y s a yi n g , “ I li v e h e r e. I
li v e h e r e. Y o u h a v e n o ri g ht.” R O A 4 1 4 . “A n d t h e n [t h e
m a n] j u st t a c kl e d [ hi m ].” I d . T h e m a n — D et e cti v e
B ri a n Mi d d a u g h — h a d n ot i d e ntifi e d hi m s elf a s a
p oli c e d et e cti v e, a n d M r. H o w s e di d n ot k n o w t h at h e
w a s a n offi c e r u ntil D et e cti v e Mi d d a u g h “ w a s o n t o p
of [ hi m] y elli n g.” A p p. 3 1, R O A 8 1 0 ¶ 2 2. Pi n n e d u n d e r
D et e cti v e Mi d d a u g h , M r. H o w s e stiff e n e d hi s a r m s t o
t r y t o k e e p D et e cti v e Mi d d a u g h a n d t h e ot h e r offi c e r s

6
f r o m pl a ci n g t h e m b e hi n d hi s b a c k, b ut h e n e v e r
st r u c k a n y o n e o r t ri e d t o f r e e hi m s elf. A p p. 3 1 , R O A
415.
M r.
H o w s e’ s
m ot h e r ,
Ni c h ol a s a S a nt a ri,
r et u r n e d h o m e a s h o rt ti m e l at e r t o fi n d t h r e e m e n i n
d a r k cl ot hi n g o n h e r p o r c h — o n e of t h e m st r a d dli n g
h e r s o n — w hil e h e r s o n s c r e a m e d, “ I li v e h e r e. I li v e
h e r e.” A p p. 3 1, 3 5 . S h e c all e d o ut, a n d w h e n M r.
H o w s e h e a r d h e r v oi c e, h e r ai s e d hi s h e a d f r o m t h e
g r o u n d a n d l o o k e d i n h e r di r e cti o n. A s hi s m ot h e r
w at c h e d , o n e of t h e m e n st r u c k hi m t wi c e i n t h e b a c k
of t h e n e c k wit h hi s fi st, sl a m mi n g hi s f a c e i nt o t h e
p o r c h . A p p. 3 4 – 3 5. M s. S a nt a ri pl e a d e d wit h t h e
offi c e r s t o st o p b e ati n g h e r s o n a n d t o t ell h e r w h at
w a s h a p p e ni n g. R O A 7 3 4 ¶ ¶ 1 2 – 1 3 .
T h e offi c e r s t h e n pl a c e d
M r.
Ho wse i n
h a n d c uff s a n d t r a n s p o rt e d hi m t o t h e Cl e v el a n d Cit y
J ail, w h e r e h e w a s d et ai n e d f o r t h e w e e k e n d. A p p. 3 5.
D et e cti v e Mi d d a u g h si g n e d a c o m pl ai nt a g ai n st M r.
H o w s e, f al s el y c h a r gi n g hi m wit h a s s a ult a n d b att e r y.
A p p. 4 7, R O A 8 1 1 ¶ 4 1.
Aft e r hi s m ot h e r p o st e d hi s b o n d , M r. H o w s e
w a s r el e a s e d f r o m j ail . He h a d n e v e r b e e n a r r e st e d
b ef o r e a n d a s s u m e d t h at t h e St at e w o ul d d r o p t h e
c h a r g e s a g ai n st hi m “ o n c e s o m e o n e i n a p o siti o n of
a ut h o rit y l o o k e d at [t h e] f a ct s a n d r e ali z e d t h at I h a d
b e e n a r r e st e d w hil e att e m pti n g t o e nt e r m y h o m e.”
R O A 8 1 0 ¶ 3 0 . I n st e a d, a g r a n d j u r y i n di ct e d M r.
H o w s e f o r t w o c o u nt s of a s s a ult o n a p oli c e offi c e r ,
b ot h f el o ni e s, a n d o n e c o u nt of o b st r u cti n g offi ci al
b u si n e s s , a mi s d e m e a n o r, b a s e d i n p a rt o n D et e cti v e
Mi d d a u g h’ s c o m pl ai nt . O n A u g u st 2, 2 0 1 6, t h e St at e
a r r ai g n e d M r. H o w s e, a j u d g e s et hi s b o n d at $ 1, 0 0 0,

7
a n d h e r et ai n e d a d ef e n s e att o r n e y. R O A 8 1 1 ¶ ¶ 3 2,
3 4 . T h r o u g h hi s att o r n e y, t h e St at e s o u g ht t o
d et e r mi n e w h et h e r M r. H o w s e w o ul d e nt e rt ai n a
mi s d e m e a n o r pl e a off e r o r a di v e r si o n p r o g r a m , b ot h
of w hi c h h e r ej e ct e d. R O A 8 1 1 ¶ ¶ 3 6 – 3 7.
O n S e pt e m b e r 1 4, 2 0 1 6, M r. H o w s e fil e d a
“ Citi z e n C o m pl ai nt F o r m” wit h t h e Cit y of Cl e v el a n d,
st ati n g t h at “ Cl e v el a n d P oli c e c a m e o n t o m y p r o p e rt y,
t h r e w m e t o t h e fl o o r a n d c o m m e n c e d st ri ki n g m e.”
A p p. 4 7, R O A 8 2 2. L e s s t h a n t h r e e w e e k s l at e r, t h e
St at e di s mi s s e d all c h a r g e s a g ai n st M r. H o w s e. A p p.
48.
I I.

T
J
P
t
o

h e Di s t ri c t C o u r t G r a n t s S u m m a r y
u d g m e n t f o r t h e D e t e c ti v e s, a D i vi d e d
a n el of t h e Si x t h Ci r c ui t Affi r m s, a n d
h e Si x t h Ci r c ui t D e ni e s R e h e a ri n g
v e r t h e Di s s e n t of F o u r J u d g e s .

I n J ul y 2 0 1 7, M r. H o w s e fil e d s uit i n O hi o st at e
c o u rt a g ai n st t h e offi c e r s i n v ol v e d i n t h e i n ci d e nt —
B ri a n Mi d d a u g h a n d T h o m a s H o d o u s — a n d t h e Cit y
of Cl e v el a n d. H e all e g e d t h at t h e offi c e r s vi ol at e d hi s
F o u rt h A m e n d m e nt ri g ht s b y s ei zi n g hi m wit h o ut
r e a s o n a bl e s u s pi ci o n o r p r o b a bl e c a u s e, u si n g
e x c e s si v e f o r c e, a n d p a rti ci p ati n g i n hi s m ali ci o u s
p r o s e c uti o n. H e al s o r ai s e d a st at e l a w cl ai m f o r
a s s a ult a n d b att e r y. T h e D ef e n d a nt s r e m o v e d t h e s uit
t o f e d e r al c o u rt t h e f oll o wi n g m o nt h .
Aft e r t h e cl o s e of di s c o v e r y, t h e di st ri ct c o u rt
g r a nt e d s u m m a r y j u d g m e nt t o t h e D ef e n d a nt s o n all
cl ai m s. A p p. 6 2 – 6 3 . Th e c o u rt r ej e ct e d M r. H o w s e’ s
a r g u m e nt s t h at h e w a s u nl a wf ull y d et ai n e d a n d

8
s u bj e ct t o e x c e s si v e f o r c e, r e a s o ni n g t h at “[t] h e
d et e cti v e s o b s e r v e d M r. H o w s e o n t h e f r o nt p o r c h of
w h at t h e y mi st a k e nl y b eli e v e d t o b e a v a c a nt h o m e i n
a hi g h c ri m e a r e a , a n d t h at “[t] h e D et e cti v e s u s e d
f o r c e n o g r e at e r t h a n n e c e s s a r y t o c o nt r ol t h e
sit u ati o n.” A p p. 5 7. Th e c o u rt r ej e ct e d M r. H o w s e’ s
m ali ci o u s p r o s e c uti o n cl ai m b a s e d o n it s vi e w t h at
“[t]h e D et e cti v e s h a d p r o b a bl e c a u s e t o a r r e st M r.
H o w s e[,] a n d[] t h e u n di s p ut e d f a ct s w e r e s uffi ci e nt t o
s u p p o rt t h e c h a r g e s fil e d a g ai n st hi m.” A p p. 6 0 .
A di vi d e d p a n el of t h e Si xt h Ci r c uit affi r m e d .
T h e m aj o rit y a c k n o wl e d g e d M r. H o w s e ’ s a r g u m e nt
t h at t h e d et e cti v e s b ot h “ st o p p e d hi m wit h o ut
r e a s o n a bl e s u s pi ci o n a n d u s e d e x c e s si v e f o r c e d u ri n g
hi s a r r e st.” A p p. 7. B ut t h e p a n el i g n o r e d t h e f o r m e r
a r g u m e nt a n d r ul e d t h at t h e l att e r w a s b a r r e d b y
q u alifi e d i m m u nit y .
I n c o n d u cti n g it s q u alifi e d i m m u nit y a n al y si s,
t h e m aj o rity st at e d : “ w e m u st e x a mi n e t h e p a rti c ul a r
sit u ati o n” a n d d et e r mi n e “ w h et h e r t h e l a w cl e a rl y
e st a bli s h e d t h at [t h e offi c e r s’ ] c o n d u ct w a s u nl a wf ul.”
A p p. 8 ( e m p h a si s o mitt e d). Th e m aj o rit y d efi n e d t h e
“ p a rti c ul a r sit u ati o n” a s “ w h et h e r e v e r y r e a s o n a bl e
offi c e r w o ul d k n o w t h at l a w e nf o r c e m e nt c a n n ot
t a c kl e s o m e o n e w h o di s o b e y e d a n o r d e r a n d t h e n u s e
a d diti o n al f o r c e if t h e y r e si st b ei n g h a n d c uff e d.” I d . In
it s vi e w, M r. H o w s e h a d t o p r e s e nt a c a s e w h e r e a
c o u rt h a d r ul e d t h at a n offi c e r a cti n g u n d e r si mil a r
ci r c u m st a n c e s h a d vi ol at e d t h e F o u rt h A m e n d m e nt.
“Wit h o ut s u c h a c a s e, t h e pl ai ntiff will al m o st al w a y s
l o s e.” I d . B e c a u s e M r. H o w s e di d n ot i d e ntif y a c a s e
p r e s e nti n g t h e s a m e f a ct u al sit u ati o n, t h e c o u rt e n d e d

9
it s a n al y si s a n d r ul e d t h at t h e offi c e r s w e r e e ntitl e d t o
q u alifi e d i m m u nit y. S e e A p p. 9.
C hi ef J u d g e C ol e di s s e nt e d f r o m t h e p a n el’ s
g r a nt of q u alifi e d i m m u nit y t o D et e cti v e Mi d d a u g h,
e x pl ai ni n g t h at t h e m aj o rit y’ s c o n cl u si o n s w e r e
“ p r e di c at e d o n r e s ol vi n g k e y f a ct u al di s p ut e s i n t h e
offi c e r s’ f a v o r” o r di s r e g a r di n g M r. H o w s e’ s e vi d e n c e.
A p p. 1 8 ( C ol e, C. J., di s s e nti n g). T o wit , t h e m aj o rit y
i g n o r e d t h e f a ct t h at “[ p] ri o r t o Mi d d a u g h t elli n g
H o w s e h e w a s g oi n g t o j ail a n d att e m pti n g t o a r r e st
hi m, H o w s e h a d d o n e n ot hi n g ill e g al at all, a n d t h e
offi c e r s d o n ot all e g e ot h e r wi s e.” A p p. 2 1 – 2 2. “ I n f a ct,
a s Mi d d a u g h att e m pt e d t o a r r e st H o w s e, hi s o nl y
p r of e s s e d b a si s f o r d oi n g s o w a s H o w s e’ s p r of a nit y.”
I d.
T h e di s s e nt al s o r ej e ct e d t h e m aj o rit y’ s f r a mi n g
of t h e e x c e s si v e f o r c e i s s u e, st at i n g: “ W e s h o ul d
i n st e a d b e a s ki n g w h et h e r it vi ol at e s a cl e a rl y
e st a bli s h e d c o n stit uti o n al ri g ht f o r a n offi c e r t o t h r o w
a p e r s o n t o t h e g r o u n d i n o r d e r t o a r r e st t h at p e r s o n
wit h o ut p r o b a bl e c a u s e.” A p p. 2 3. (f o ot n ot e o mitt e d)
C hi ef J u d g e C ol e c o n cl u d e d t h at t h e a n s w e r w a s “ y e s.”
W h et h e r a n offi c e r h a s u s e d e x c e s si v e f o r c e i s
g o v e r n e d b y f o u r f a ct o r s s et f o rt h i n G r a h a m v.
C o n n o r , 4 9 0 U. S. 3 8 6, 3 9 6 ( 1 9 8 9), a n d “ cl e a rl y
e st a bli s h e d l a w o n t h o s e f a ct o r s c o m p el s t h e
c o n cl u si o n t h at t h e f o r c e u s e d i n t h r o wi n g H o w s e t o
t h e g r o u n d w a s e x c e s si v e.” A p p. 2 4.
T h e m aj o rit y a n d di s s e nt al s o di v e r g e d o n h o w
t o r e s ol v e M r. H o w s e’ s m ali ci o u s p r o s e c uti o n cl ai m.
All t h r e e j u d g e s a g r e e d t h at to wi n hi s m ali ci o u s
p r o s e c uti o n cl ai m M r. H o w s e “ m u st s h o w ( a m o n g
ot h e r t hi n g s) t h at t h e offi c e r s h el p e d st a rt a

10
p r o s e c uti o n a g ai n st hi m wit h o ut p r o b a bl e c a u s e.”
A p p. 1 0 . B ut t h e y di s a g r e e d o n w h at t o d o if o n e
c h a r g e w a s s u p p o rt e d b y p r o b a bl e c a u s e w hil e ot h e r s
w e r e n ot.
H e r e, t h e offi c e r s ch a r g e d M r. H o w s e wit h
t h r e e off e n s e s: t w o f el o n y c o u nt s of a s s a ulti n g a p oli c e
offi c e r a n d o n e mi s d e m e a n o r c o u nt of o b st r u cti n g
offi ci al b u si n e s s. A c c o r di n g t o t h e m aj o rit y, M r.
H o w s e’ s m ali ci o u s p r o s e c uti o n cl ai m m u st f ail s ol el y
b e c a u s e M r. H o w s e p r o vi d e d t h e p oli c e wit h p r o b a bl e
c a u s e f o r o b st r u cti n g offi ci al b u si n e s s b y “ stiff e ni n g u p
hi s b o d y a n d s c r e a mi n g” “t o m a k e it m o r e diffi c ult f o r
t h e offi c e r s t o a r r e st hi m .”1 A p p. 1 1 . A n al o gi zi n g
m ali ci o u s p r o s e c uti o n cl ai m s t o f al s e a r r e st c l ai m s,
t h e m aj o rit y c o n cl u d e d t h at “ b e c a u s e t h e r e w a s
p r o b a bl e c a u s e f o r ” t h e o b st r u cti n g offi ci al b u si n e s s
c h a r g e, “H o w s e c a n n ot m o v e f o r w a r d wit h a n y of hi s
m ali ci o u s -p r o s e c uti o n cl ai m s.” I d .
C hi ef J u d g e C ol e r ej e ct e d t h e m aj o rit y’ s
p r e mi s e. H e w r ot e : “ T h e S u p r e m e C o u rt t ell s u s t h at
t h e t o rt of m ali ci o u s p r o s e c uti o n i s ‘e nti r el y di sti n ct ’
f r o m t h e t o rt of . . . f al s e a r r e st, a s t h e f o r m e r r e m e di e s
t h e w r o n gf ul i n stit uti o n of l e g al p r o c e s s a n d t h e l att e r
r e m e di e s d et e nti o n i n t h e a b s e n c e of l e g al p r o c e s s.”
A p p. 2 5 ( C ol e, C. J., di s s e nti n g) ( citi n g W all a c e v. K at o ,
5 8 9 U. S. 3 8 4, 3 9 0 ( 2 0 0 7) ). “[ T]h e m aj o rit y d et e r mi n e s
t h at t h e s e ‘ e nti r el y di sti n ct’ cl ai m s m u st n e c e s s a ril y
b e a n al y z e d i n t h e e x a ct s a m e w a y, d e s pit e m y ri a d
O b st r u cti n g offi ci al b u si n e s s r e q ui r e s i n t e rf e r e n c e wit h a p u bli c
offi ci al’ s p e rf o r m a n c e of a “l a wf ul d ut y,” O hi o R e v. C o d e A n n.
§ 2 9 2 1. 3 1( a), b ut D et e cti v e Mi d d a u g h w a s c a r r yi n g o ut a n a r r e st
wit h o ut p r o b a bl e c a u s e. T h e m aj o rit y m a d e n o eff o rt t o e x pl ai n
w h y D et e cti v e Mi d d a u g h’ s att e m pt t o c a r r y o ut a n a r r e st wit h o ut
p r o b a bl e c a u s e c o n stit ut e d “ a l a wf ul d ut y.”

1

11
r e a s o n s t o f oll o w t h e S u p r e m e C o u rt’ s di r e cti o n a n d
t r e at t h e m diff e r e ntl y.” I d . C hi ef J u d g e C ol e e x pl ai n e d
t h at h e w o ul d j oi n t h e S e c o n d, T hi r d, S e v e nt h, a n d
El e v e nt h Ci r c uit s i n h ol di n g t h at a
m ali ci o u s
p r o s e c uti o n cl ai m c a n p r o c e e d e v e n w h e r e o n e of
m ul ti pl e c h a r g e s i s s u p p o rt e d b y p r o b a bl e c a u s e. A p p.
2 6 – 2 8.
F oll o wi n g t h e p a n el ’ s affi r m a n c e, M r. H o w s e
p etiti o n e d f o r r e h e a ri n g e n b a n c. A p p. 6 0. T h e Si xt h
Ci r c uit d e ni e d t h e p etiti o n. J u d g e Gi b b o n s fil e d a
di s s e nt f r o m t h e d e ni al j oi n e d b y C hi ef J u d g e C ol e,
J u d g e W hit e, a n d J u d g e St r a n c h. A p p. 6 7. I n J u d g e
Gi b b o n s’ w o r d s , “[t]h e p a n el’ s h ol di n g wit h r e s p e ct t o
m ali ci o u s p r o s e c uti o n cl ai m s, w hi c h a d o pt s a o n e -si z e fit s-all a p p r o a c h t o f al s e a r r e st a n d
m ali ci o u s
p r o s e c uti o n, i s a p r e c e d e nt -s etti n g e r r o r of e x c e pti o n al
p u bli c i m p o rt a n c e.” I d . “ It i s at o d d s wit h S u p r e m e
C o u rt p r e c e d e nt, a n d o u r p r e c e d e nt s. A n d it f ail s t o
e n g a g e wit h t h e m a n y c o m p elli n g r e a s o n s off e r e d b y
o u r si st e r ci r c uit s f o r d e cli ni n g t o a d o pt s u c h a n
a p p r o a c h.” I d . ( q u ot ati o n m a r k s
a n d cit ati o n s
o mitt e d).
T h e di s s e nti n g j u d g e s al s o s u p p o rt e d r e h e a ri n g
t h e p a n el’ s q u alifi e d i m m u nit y d e ci si o n. T h e di s s e nt
n ot e d t h at t h e Si xt h Ci r c uit h a d l o n g e m p h a si z e d t h at
q u alifi e d i m m u nit y d e ci si o n s m u st p a y att e nti o n t o
t h e s p e cifi c f a ct u al ci r c u m st a n c e s of t h e c a s e. S e e i d.
“ A n d y et, i n f r a mi n g S h a s e H o w s e’ s ri g ht i n t hi s c a s e,
t h e p a n el f ail s t o a c c o u nt f o r hi s s u s p e ct e d c ri mi n alit y
( n o n e), l o c ati o n ( h o m e), o r c o n d u ct (t r ut hf ull y
a n s w e ri n g q u e sti o n s).” I d. J u d g e Gi b b o n s st at e d t h at
w hil e q u alifi e d i m m u nit y c a s e s “f r e q u e ntl y r ai s e
g r o u n d s f o r r e a s o n a bl e di s a g r e e m e nt — a n d r a r el y

12
w a r r a nt e n b a n c r e h e a ri n g” — t h e m aj o rit y’ s d e ci si o n
“ e r o d e[ s] . . . c o nfi d e n c e i n t h e j u di ci a r y” b y f aili n g t o
c a r ef ull y d efi n e M r. H o w s e’ s ri g ht s. A p p. 6 7 – 6 8.
R E A S O N S F O R G R A N TI N G T H E P E TI TI O N
I.

T h e Si x t h Ci r c ui t’ s Q u alifi e d I m m u ni t y
R uli n g
C o n t r a di c t s
t hi s
C o u r t’ s
P r e c e d e n t a n d C r e a t e s a Ci r c ui t S pli t.

T h e F o u rt h A m e n d m e nt p r o hi bit s s ei z u r e s
a b s e nt “ a r e a s o n a bl e s u s pi ci o n, b a s e d o n o bj e cti v e
f a ct s, t h at t h e i n di vi d u al i s i n v ol v e d i n c ri mi n al
a cti vit y,” a n d it p r o hi bit s a r r e st s a b s e nt “‘ p r o b a bl e
c a u s e’ t o b eli e v e t h at t h e s u s p e ct i s i n v ol v e d i n
c ri mi n al a cti vi t y.” B r o w n v. T e x a s , 4 4 3 U. S. 4 7, 5 1
( 1 9 7 9). T h e F o u rt h A m e n d m e nt al s o p r o hi bit s t h e
“ o bj e cti v el y u n r e a s o n a bl e u s e of f o r c e” d u ri n g a
s ei z u r e o r a r r e st, G r a h a m , 4 9 0 U. S at 3 9 7, w hi c h i s
d et e r mi n e d b y b al a n ci n g “‘t h e n at u r e a n d q u alit y of
t h e i nt r u si o n o n t h e i n di vi d u al’ s F o u rt h A m e n d m e nt
i nt e r e st s a g ai n st t h e i m p o rt a n c e of t h e g o v e r n m e nt al
i nt e r e st s all e g e d t o j u stif y t h e i nt r u si o n.’” T ol a n , 5 7 2
U. S. 6 5 0, 6 5 6 ( 2 0 1 4) ( p e r c u ri a m) ( q u oti n g T e n n e s s e e
v. G a r n e r , 4 7 1 U. S. 1, 8 ( 1 9 8 5), a n d citi n g G r a h a m )
( a d diti on al q u ot ati o n m a r k s o mitt e d).
A p pl yi n g t h e s e cl e a rl y e st a bli s h e d p ri n ci pl e s,
M r. H o w s e’ s F o u rt h A m e n d m e nt cl ai m m u st b e
d e ci d e d b y a j u r y. Vi e wi n g t h e s u m m a r y j u d g m e nt
r e c o r d i n t h e li g ht m o st f a v o r a bl e t o M r. H o w s e, a s
R ul e 5 6 r e q ui r e s, D et e cti v e Mi d d a u g h a r r e st e d M r.
H o w s e wit h o ut p r o b a bl e c a u s e o r e v e n r e a s o n a bl e
s u s pi ci o n, a n d h e di d s o b y e m pl o yi n g p r e ci s el y t h e
ki n d of “ o bj e cti v el y u n r e a s o n a bl e u s e of f o r c e”

13
f o r bi d d e n b y t h e F o u rt h A m e n d m e nt. G r a h a m , 4 9 0
U. S. at 3 9 7.
T he
p a n el
b el o w
n e v e rt h el e s s
g r a nt e d
D et e cti v e Mi d d a u g h s u m m a r y j u d g m e nt, r e a s o ni n g
t h at “t h e u nl a wf ul n e s s of [ hi s] c o n d u ct” w a s n ot
“ cl e a rl y e st a bli s h e d at t h e ti m e [ h e a n d a n ot h e r
offi c e r] a p p r o a c h e d a n d a r r e st e d H o w s e.” A p p. 7. B ut,
b y 2 0 1 6, t hi s C o u rt’ s p r e c e d e nt m a d e it “‘ cl e a r t o a
r e a s o n a bl e offi c e r t h at [it] w a s u nl a wf ul’” t o a r r e st
s o m e o n e wit h o ut p r o b a bl e c a u s e, a n d t o t a c kl e a n d
t h e n st ri k e t h e m i n t h e c o u r s e of d oi n g s o. Di st ri ct of
C ol u m bi a v. W e s b y , 1 3 8 S. Ct. 5 7 7, 5 9 0 ( 2 0 1 8) ( q u oti n g
S a u ci e r v. K at z , 5 3 3 U. S. 1 9 4, 2 0 2 ( 2 0 0 1)).
I n r e a c hi n g a c o nt r a r y c o n cl u si o n, t h e p a n el
m aj o rit y m a d e t w o e r r o r s t h at c o nt r a v e n e t hi s C o u rt’ s
q u alifi e d i m m u nit y p r e c e d e nt a n d w a r r a nt c e rti o r a ri
r e vi e w.
Fi r st, t h e p a n el “f ail e d p r o p e rl y t o
a c k n o wl e d g e k e y e vi d e n c e off e r e d b y t h e p a rt y
o p p o si n g” s u m m a r y j u d g m e nt a n d t h e r ef o r e di d n ot
“ d efi n e t h e ‘ cl e a rl y e st a bli s h e d’ ri g ht at i s s u e o n t h e
b a si s of t h e ‘ s p e cifi c c o nt e xt of t h e c a s e.’” T ol a n , 57 2
U. S. at 6 5 7 ( q u oti n g S a u ci e r , 5 3 3 U. S. at 2 0 1). T h e
p a n el di d n ot a d d r e s s t h e e vi d e n c e t h at D et e cti v e
Mi d d a u g h t a c kl e d M r. H o w s e f o r t h e p u r p o s e of
t a ki n g hi m t o j ail e v e n t h o u g h M r. H o w s e w a s si m pl y
e nt e ri n g hi s o w n h o m e wit h hi s o w n k e y; t h at
D et e cti v e Mi d d a u g h t wi c e st r u c k M r. H o w s e i n t h e
n e c k, c a u si n g hi s f a c e t o hit t h e p o r c h; o r t h at t hi s
f o r c e w a s a p pli e d t o eff e ct u at e a s ei z u r e o n t h e f r o nt
p o r c h of M r. H o w s e’ s o w n r e si d e n c e.
S e c o n d, t h e p a n el m aj o rit y c o n cl u d e d t h at,
a b s e nt a p ri o r c a s e i n v ol vi n g si mil a r f a ct s w h e r e a n
offi c e r’ s c o n d u ct w a s h el d u nl a wf ul, “t h e pl ai n tiff will

14
al m o st al w a y s l o s e.” A p p. 8. B ut t hi s C o u rt h a s
r e p e at e dl y r e affi r m e d t h at “‘ g e n e r al st at e m e nt s of t h e
l a w a r e n ot i n h e r e ntl y i n c a p a bl e of gi vi n g f ai r a n d
cl e a r w a r ni n g’ t o offi c e r s,” a n d t h at G r a h a m a n d
G a r n e r t h e m s el v e s c r e at e cl e a rl y e st a bli s h e d l a w i n
“‘ o b vi o u s c a s e[ s].’” W hit e v. P a ul y , 1 3 7 S. Ct. 5 4 8, 5 5 2
( 2 0 1 7) (cit ati o n s o mitt e d) ; a c c o r d W e s b y , 1 3 8 S. Ct. at
5 9 0. E v e n t h o u g h t h e di s s e nt e x pl ai n e d w h y t hi s i s a n
o b vi o u s c a s e u n d e r t h e F o u rt h A m e n d m e nt a n d
Gr a h a m , t h e
m aj o rit y i g n o r e d t h at c o nt r olli n g
d e ci si o n.
Alt h o u g h p ri o r c a s e s wit h si mil a r f a ct s a r e
i m p o rt a nt w h e n t h e c o n stit uti o n al vi ol ati o n i s n ot
o b vi o u s, t h i s C o u rt d o e s n ot r e q ui r e a p ri o r “‘ c a s e
di r e ctl y o n p oi nt.’” W hit e , 1 3 7 S. Ct. at 5 51 ( cit ati o n s
o mitt e d). R at h e r, t h e t o u c h st o n e of t h e q u alifi e d
i m m u nit y a n al y si s i s w h et h e r “ e xi sti n g p r e c e d e nt . . .
pl a c e[ s] t h e [l a wf ul n e s s of t h e p a rti c ul a r s ei z u r e]
‘ b e y o n d d e b at e.’” I d . ( cit ati o n s o mitt e d). E xi sti n g
p r e c e d e nt p ut s it b e y o n d d e b at e t h at a p oli c e offi c e r
c a n n ot a r r e st s o m e o n e wit h o ut p r o b a bl e c a u s e a s h e
i s u si n g hi s k e y t o e nt e r hi s o w n h o m e, o r t h r o w hi m
d o w n t o t h e g r o u n d i n t h e c o u r s e of d oi n g s o. N o r c a n
a n offi c e r st ri k e a s u s p e ct t wi c e i n t h e n e c k w h e n t h e
s u s p e ct p o s e s n o t h r e at t o t h e offi c e r.
T h e d e ci si o n b el o w al s o c r e at e s a s plit of
a ut h o rit y wit h ot h e r ci r c uit s, w hi c h h a v e d e ni e d
q u alifi e d i m m u nit y i n a n al o g o u s c a s e s i n v ol vi n g
o b vi o u s F o u rt h A m e n d m e nt vi ol ati o n s e v e n i n t h e
a b s e n c e of a f a ct u all y si mil a r p ri o r c a s e. A n d t hi s
i s s u e i s i m p o rt a nt. T h e f e d e r al c o urt s a r e r o uti n el y
f a c e d wit h di s p ut e s a b o ut t h e s c o p e of q u alifi e d
i m m u nit y “i n c a s e s i n v ol vi n g all e g ati o n s t h at a l a w

15
e nf o r c e m e nt offi c e r e n g a g e d i n u n c o n stit uti o n al
c o n d u ct.” S al a z a r -Li m o n v. Cit y of H o u st o n , 1 3 7 S. Ct.
1 2 7 7, 1 2 7 8 ( 2 0 1 7) ( Alit o, J., j oi n e d b y T h o m a s, J.,
c o n c u r ri n g i n d e ni al of c e rti o r a ri). It i s t h e r ef o r e
i m p o rt a nt f o r t hi s C o u rt t o p r o vi d e g ui d a n c e w h en , a s
h e r e, “t h e l o w e r c o u rt c o n s pi c u o u sl y f ail e d t o a p pl y a
g o v e r ni n g l e g al r ul e .” I d .
A. T h e D e ci si o n B el o w F ail s t o A p pl y t h e
G o v e r ni n g L e g al R ul e t h a t i n Q u alifi e d
I m m u ni t y C a s e s, a s i n O t h e r C a s e s, t h e
S u m m a r y J u d g m e nt R e c o r d M u st B e
Vi e w e d i n t h e Li g h t M u s t F a v o r a bl e t o
t h e N o n m o v a nt.
I n T ol a n v. C ott o n , t hi s C o u rt e m p h a si z e d t h at
t h e q u alifi e d i m m u nit y st a n d a r d d o e s n ot a ut h o ri z e a
d e p a rt u r e f r o m t h e b a si c r ul e s of s u m m a r y j u d g m e nt.
T h e r ef o r e, j u st a s i n a n y ot h e r c a s e, “ c o u rt s m a y n ot
r e s ol v e g e n ui n e di s p ut e s of f a ct i n f a v o r of t h e p a rt y
s e e ki n g s u m m a r y j u d g m e nt,” a n d t h e y “ m u st vi e w t h e
e vi d e n c e ‘i n t h e li g ht m o st f a v o r a bl e t o t h e o p p o si n g
p a rt y.’” 5 7 2 U. S. at 6 5 6, 6 5 7 ( q u oti n g A di c k e s v. S. H.
K r e s s & C o. , 3 9 8 U. S. 1 4 4, 1 5 7 ( 1 9 7 0)). T hi s i s b e c a u s e
“ a ‘j u d g e’ s f u n cti o n’ a t s u m m a r y j u d g m e nt i s n ot ‘t o
w ei g h t h e e vi d e n c e a n d d et e r mi n e t h e t r ut h of t h e
m att e r b ut t o d et e r mi n e w h et h e r t h e r e i s a g e n ui n e
i s s u e f o r t ri al.’” I d. at 6 5 6 ( q u oti n g A n d e r s o n v. Li b e rt y
L o b b y, I n c. , 4 7 7 U. S. 2 4 2, 2 4 9 ( 1 9 8 6)).
T ol a n f u rt h e r st r e s s e d t h at t hi s C o u rt’ s
“ q u alifi e d-i m m u nit y c a s e s ill u st r at e t h e i m p o rt a n c e of
d r a wi n g i nf e r e n c e s i n f a v o r of t h e n o n m o v a nt, e v e n
w h e n, a s h e r e, a c o u rt d e ci d e s o nl y t h e cl e a rl y -

16
e st a bli s h e d p r o n g of t h e st a n d a r d.” I d . at 6 5 7. I n c a s e s
“ all e gi n g u n r e a s o n a bl e s e a r c h e s o r s ei z u r e s, w e h a v e
i n st r u ct e d t h at c o u rt s s h o ul d d efi n e t h e ‘ cl e a rl y
e st a bli s h e d’ ri g ht at i s s u e b a s e d o n t h e ‘ s p e cifi c
c o nt e xt of t h e c a s e.’ A c c o r di n gl y, c o u rt s m u st t a k e c a r e
n ot t o d efi n e a c a s e’ s ‘ c o nt e xt’ i n a m a n n e r t h at
i m p o rt s g e n ui n el y di s p ut e d f a ct u al p r o po siti o n s.’” I d .
( cit ati o n s o mitt e d).
H e r e, t h e Si xt h Ci r c uit f r a m e d t h e q u e sti o n a s
w h et h e r “ e v e r y r e a s o n a bl e offi c e r w o ul d k n o w t h at
l a w e nf o r c e m e nt c a n n ot t a c kl e s o m e o n e
w ho
di s o b e y e d a n o r d e r a n d t h e n u s e a d diti o n al f o r c e if
t h e y r e si st b ei n g h a n d c uff e d.” A p p. 8. B ut t h at
f r a mi n g r efl e ct e d t h e s a m e e r r o r t h e Fift h Ci r c uit
m a d e i n T ol a n . It w a s p r e mi s e d o n t h e Si xt h Ci r c uit’ s
“f ail[ u r e] t o p r o p e rl y a c k n o wl e d g e k e y e vi d e n c e
off e r e d b y t h e p a rt y o p p o si n g” s u m m a r y j u d g m e nt,
5 7 2 U. S. at 6 5 9: t h at D et e cti v e M i d d a u g h t ol d M r.
H o w s e h e w a s “ g oi n g t o j ail” b ef o r e o r d e ri n g hi m t o
p ut hi s h a n d s b e hi n d hi s b a c k a n d t h e n t h r o wi n g hi m
t o t h e g r o u n d. A s C hi ef J u d g e C ol e e x pl ai n e d i n
di s s e nt, t h at m e a nt D et e cti v e Mi d d a u g h t a c kl e d M r.
H o w s e i n o r d e r t o eff e ct u at e a n a r r e st. S e e A p p. 2 1 .
A n d it i s u n di s p ut e d t h at D et e cti v e Mi d d a u g h
l a c k e d p r o b a bl e c a u s e f o r a n a r r e st. A s C hi ef J u d g e
C ol e e x pl ai n e d, “[ p] ri o r t o Mi d d a u g h t elli n g H o w s e h e
w a s g oi n g t o j ail a n d att e m pti n g t o a r r e st hi m, H o w s e
h a d d o n e n ot hi n g ill e g al at all . . . .” A p p. 1 9 . “ I n st e a d,
H o w s e h a d o nl y r e p e at e dl y a s s e rt e d t h e (t r u e) f a ct
t h at h e li v e d at t h e r e si d e n c e a n d s w o r n at t h e
pl ai n cl ot h e s offi c e r s w h e n t h e y k e pt a s ki n g hi m t h e
s a m e q u e sti o n.” I d . H a d t h e m aj o rit y a c k n o wl e d g e d
all of M r. H o w s e’ s e vi d e n c e a n d vi e w e d t h at e vi d e n c e

17
i n t h e li g ht m o st f a v o r a bl e t o hi m, it w o ul d h a v e a s k e d
a diff e r e nt q u e sti o n, vi z. , “ w h et h e r it vi ol at e s a cl e a rl y
e st a bli s h e d c o n stit uti o n al ri g ht f o r a n offi c e r t o t h r o w
a p e r s o n t o t h e g r o u n d i n o r d e r t o a r r e st t h at p e r s o n
wit h o ut p r o b a bl e c a u s e.” A p p. 2 0 – 2 1 (f o ot n ot e
o mitt e d).
T h e a n s w e r t o t h at q u e sti o n i s o b vi o u sl y n o. A s
t h e m ajo rit y a c k n o wl e d g e d: “ Of c o u r s e, it’ s t r u e t h at
a n offi c e r c a n n ot a r r e st s o m e o n e wit h o ut p r o b a bl e
c a u s e.” A p p. 9 n. 1 . A n d t h e m aj o rit y di d n ot di s p ut e
t h at Offi c e r Mi d d a u g h l a c k e d p r o b a bl e c a u s e t o a r r e st
M r. H o w s e. I n st e a d, t h e m aj o rit y st at e d t h at “it i s n’t
o b vi o u s t h at t h e offi c e r s w e r e eff e ct u ati n g a n a r r e st
( r at h e r t h a n a n i n v e sti g at o r y st o p) w h e n t h e y t a c kl e d
a n d h a n d c uff e d H o w s e,” b e c a u s e “[t] h e m e r e a ct of
h a n d c uffi n g s o m e o n e d o e s n’t t r a n sf o r m a st o p i nt o a n
a r r e st.” I d . I n s o d oi n g, t h e m aj o rit y i m p r o p e rl y d r e w
a n i nf e r e n c e (“it i s n’t o b vi o u s”) i n f a v o r of D ef e n d a nt s,
t h e m o vi n g p a rti e s. M o r e o v e r, t h e p a n el r e s p o n d e d t o
a n a r g u m e nt C hi ef J u d g e C ol e di d n ot m a k e. A s C hi ef
J u d g e C ol e e x pl ai n e d, it w a s cl e a r t h at D et e cti v e
Mi d d a u g h w a s a r r e sti n g M r. H o w s e n ot b e c a u s e
D et e cti v e Mi d d a u g h h a n d c uff e d M r. H o w s e, b ut
b e c a u s e D et e cti v e Mi d d a u g h t ol d M r. H o w s e t h at h e
w a s “ g oi n g t o j ail.” A p p. 2 3 n. 1. I n d e e d, b ot h “ p a rti e s
a g r e e[ d] t h at Mi d d a u g h d e pl o y e d t h e f o r c e i n q u e sti o n
w hil e e x e c uti n g a n a r r e st.” A p p. 2 0 . T h e m aj o rit y
si m pl y i g n o r e d t h at e vi d e n c e .
M o r e o v e r, e v e n a n i n v e sti g at o r y st o p r e q ui r e s
i n di vi d u ali z e d s u s pi ci o n of c ri mi n al w r o n g d oi n g. S e e,
e. g., Cit y of I n di a n a p oli s v. E d m o n d , 5 3 1 U. S. 3 2, 3 7
( 2 0 0 0). T a ki n g M r. H o w s e’ s e vi d e n c e a s t r u e a n d
d r a wi n g all r e a s o n a bl e i nf e r e n c e s i n hi s f a v o r,

18
D et e cti v e
Mi d d a u g h l a c k e d a n y i n di vi d u ali z e d
s u s pi ci o n t h at w o ul d s u p p o rt e v e n a n i n v e sti g at o r y
st o p ; h e i n st e a d c h o s e t o a r r e st M r. H o w s e b e c a u s e h e
di d n ot li k e M r. H o w s e’ s “ s m a rt m o ut h a n d . . .b a d
attit u d e.” A p p. 3 3 – 3 4. M r. H o w s e u s e d hi s k e y t o e nt e r
hi s o w n r e si d e n c e, a n d t h e n r e p e at e dl y ( a n d
a c c u r at el y) t ol d offi c e r s t h at h e li v e d i n t h e h o m e i n
r e s p o n s e t o t h ei r q u e sti o n s. H e di d n ot fl e e o r t h r e at e n
t h e offi c e r s, a n d t h e f a ct t h at h e u s e d p r of a nit y w hil e
t r ut hf ull y a n s w e ri n g t h ei r q u e sti o n s d o e s n ot p r o vi d e
i n di vi d u ali z e d s u s pi ci o n of c ri mi n al w r o n g d oi n g. T h e
m aj o rit y si m pl y a s s u m e d t h at D et e cti v e Mi d d a u g h
h a d r e a s o n a bl e s u s pi ci o n t o s u p p o rt a T e r r y st o p
wit h o ut c r e diti n g, o r a d d r e s si n g, t h e s u m m a r y
j u d g m e nt e vi d e n c e p r e s e nt e d b y M r. H o w s e. S e e A p p.
9 n. 1.
T he
m aj o rit y
al s o
“f ail e d t o
p r o p e rl y
a c k n o wl e d g e” t w o ot h e r i m p o rt a nt pi e c e s of e vi d e n c e
off e r e d b y M r. H o w s e. T ol a n , 5 7 2 U. S. at 6 5 9. Fi r st,
t h e m aj o rit y di d n ot a c k n o wl e d g e t h at, aft e r t a c kli n g
M r. H o w s e, D et e cti v e Mi d d a u g h st r u c k hi m t wi c e i n
t h e b a c k of t h e n e c k w hil e h a n d c uffi n g hi m. T h e
m aj o rit y i n st e a d r ef e r r e d v a g u el y t o “ a d diti o n al
f o r c e,” s u g g e sti n g t h at it w a s j u stifi e d b e c a u s e M r.
H o w s e “ r e si st [e d ] b ei n g h a n d c uff e d” b y stiff e ni n g u p
hi s b o d y. A p p. 8. B ut w hil e c e rt ai n ki n d s of “ a d diti o n al
f o r c e” m a y b e j u stifi e d w h e n a n i n di vi d u al stiff e n s u p
hi s b o d y ( e v e n w h e r e, a s h e r e, h e d o e s n ot t h r e at e n o r
att e m pt t o h a r m t h e offi c e r), t h at d o e s n ot m e a n a n y
t y p e of a d diti o n al f o r c e i s j u stifi e d. S e e, e. g. ,
L u n d st r o m v. R o m e r o , 6 1 6 F. 3 d 1 1 0 8, 1 1 2 3 ( 1 0t h Ci r.
2 0 1 0) ( u s e of n o n -d e mi ni mi s f o r c e m u st b e r e a s o n a bl y
n e c e s s a r y t o p r ot e ct offi c e r s af et y o r m ai nt ai n st at u s

19
q u o); El -G h a z z a w y v. B et hi a u m e , 6 3 6 F. 3 d 4 5 2, 4 5 7
( 8t h Ci r. 2 0 1 1) ( si mil a r, di s c u s si n g G r a h a m a n d T e r r y
v. O hi o , 3 9 2 U. S. 1 ( 1 9 6 8)).
S e c o n d, t h e m aj o rit y di d n ot a c k n o wl e d g e
w h e r e all of t h e s e e v e nt s o c c u r r e d: t h e f r o nt p o r c h of
M r. H o w s e’ s r e si d e n c e w h e r e h e li v e d wit h hi s m ot h e r.
T hi s C o u rt h a s “l o n g r e c o g ni z e d t h e r el e v a n c e of t h e
c o m m o n l a w’ s s p e ci al r e g a r d f o r t h e h o m e t o t h e
d e v el o p m e nt of F o u rt h A m e n d m e nt j u ri s p r u d e n c e.”
P a yt o n v. N e w Y o r k , 4 4 5 U. S. 5 7 3, 5 9 7 n. 4 5 ( 1 9 8 0). A s
J u sti c e G o r s u c h r e c e ntl y st at e d i n a n ot h e r F o u rt h
A m e n d m e nt c a s e:
“ T he
C o n stit uti o n ’s hi st o ri c
p r ot e cti o n s f o r t h e s a n ctit y of t h e h o m e a n d it s
s u r r o u n di n g s d e m a n d m o r e r e s p e ct f r o m u s all t h a n
w a s di s pl a y e d h e r e.” B o v at v. V e r m o nt , _ _ S. Ct. _ _
( 2 0 2 0) ( St at e m e nt R e s p e cti n g t h e D e ni al of C e rti o r a ri,
j oi n e d b y S ot o m a y o r & K a g a n, J J.).
I n s u m, t h e Si xt h Ci r c uit m a d e t h e v e r y e r r o r
t h e Fift h Ci r c uit m a d e i n T ol a n , a n d it s e r r o r
w a r r a nt s t hi s C o u rt’ s r e vi e w. A s e x pl ai n e d i n T ol a n ,
alt h o u g h “‘t hi s C o u rt i s n ot e q ui p p e d t o c o r r e ct e v e r y
p e r c ei v e d e r r o r c o mi n g f r o m t h e l o w e r f e d e r al c o u rt s,’”
i nt e r v e nti o n i s w a r r a nt e d i n q u alifi e d i m m u nit y c a s e s
w h e n, a s h e r e, “t h e o pi ni o n b el o w r efl e ct s a cl e a r
mi s a p p r e h e n si o n of s u m m a r y j u d g m e nt st a n d a r d s i n
li g ht of o u r p r e c e d e nt s.” I d . at 6 5 9 ( cit ati o n o mitt e d);
s e e al s o S al a z a r -Li m o n , 1 3 7 S. Ct. at 1 2 7 8 (Alit o, J.,
j oi n e d b y T h o m a s, J., c o n c u r ri n g i n d e ni al of
c e rti o r a ri).

20
B. T h e D e ci si o n B el o w F ail s t o A p pl y t h e
G o v e r ni n g L e g al R ul e t h a t G e n e r al
S t a t e m e n t s of t h e L a w P r o vi d e Cl e a r
N o ti c e
of
F o u rt h
A m e n d m e nt
Vi ol a ti o n s i n O b vi o u s C a s e s .
T h e k e y i s s u e i n q u alifi e d i m m u nit y c a s e s s u c h
a s t hi s i s w h et h e r t h e offi c e r h a d f ai r a n d cl e a r
w a r ni n g t h at hi s c o n d u ct w a s u nl a wf ul. S e e, e. g. ,
W hit e , 1 3 7 S. Ct. at 5 5 2. I n “‘t h e li g ht of p r e-e xi sti n g
l a w t h e u nl a wf ul n e s s m u st b e a p p a r e nt’” t o a
r e a s o n a bl e offi c e r. I d . ( cit ati o n o mitt e d). T h e Si xt h
Ci r c uit u n d e r st o o d t h e s e p ri n ci pl e s t o m e a n t h at,
a b s e nt a p ri o r c a s e i n v ol vi n g si mil a r f a ct s w h e r e t h e
offi c e r’ s c o n d u ct w a s h el d t o h a v e vi ol at e d t h e F o u rt h
A m e n d m e nt, “t h e pl ai ntiff will al m o st al w a y s l o s e,”
a n d it f ail e d e v e n t o c o n si d e r w h et h e r t hi s c a s e
i n v ol v e s a n o b vi o u s F o u rt h A m e n d m e nt vi ol ati o n.
A p p. 8 ( cit ati o n o mitt e d). T h e Si xt h Ci r c uit’ s a p p r o a c h
fi n d s n o s u p p o rt i n t hi s C o u rt’ s p r e c e d e nt, a n d it
mi s c o n st r u e s t hi s C o u rt’ s i n st r u cti o n s a b o ut t h e
si g nifi c a n c e of p ri o r c a s e s i n v ol vi n g si mil a r f a ct s.
T hi s C o u rt h a s e m p h a si z e d t h at cl e a rl y
e st a bli s h e d l a w s h o ul d n ot b e d ef i n e d at t o o hi g h of a
l e v el of g e n e r alit y, i n a w a y t h at w o ul d “‘ c o n v e rt t h e
r ul e of q u alifi e d i m m u nit y . . . i nt o a r ul e of vi rt u all y
u n q u alifi e d li a bilit y si m pl y b y all e gi n g vi ol ati o n of
e xt r e m el y a b st r a ct ri g ht s.’” W hit e , 1 3 7 S. Ct. at 5 5 2
( q u oti n g A n d e r s o n v. C r ei g ht o n , 4 8 3 U. S. 6 3 5, 6 3 9
( 1 9 8 7)). B ut t hi s C o u rt h a s al s o st r e s s e d t h at it s
p r e c e d e nt “‘ d o e s n ot r e q ui r e a c a s e di r e ctl y o n p oi nt’”
f o r a n offi c e r t o h a v e f ai r n oti c e t h at hi s c o n d u ct i s
u nl a wf ul, a n d t h at “‘ g e n e r al st at e m e nt s of t h e l a w a r e

21
n o t i n h e r e ntl y i n c a p a bl e of gi vi n g f ai r a n d cl e a r
w a r ni n g’ t o offi c e r s.” I d . ( cit ati o n s a n d alt e r ati o n s
o mitt e d). T h e k e y i s w h et h e r “t h e r ul e’ s c o nt o u r s [ a r e]
s o w ell d efi n e d t h at it i s ‘ cl e a r t o a r e a s o n a bl e offi c e r
t h at hi s c o n d u ct w a s u nl a wf ul i n t h e sit u ati o n h e
c o nf r o nt e d.’” W e s b y , 1 3 8 S. Ct. at 5 9 0 ( q u oti n g S a u ci e r
v. K at z , 5 3 3 U. S. 1 9 4, 2 0 2 ( 2 0 0 1)).
I n c a s e s i n v ol vi n g g e n e r al st a n d a r d s li k e
p r o b a bl e c a u s e o r u n r e a s o n a bl e u s e of f o r c e, “ offi c e r s
will oft e n fi n d it diffi c ult t o k n o w h o w t h e g e n e r al
st a n d a r d . . . a p pli e s i n ‘t h e p r e ci s e sit u ati o n
e n c o u nt e r e d.’” I d . ( q u oti n g Zi gl a r v. A b b a si , 1 3 7 S. Ct.
1 8 4 3, 1 8 6 6 ( 2 0 1 7)). I n t h o s e ci r c u m st a n c e s, a f a ct u all y
si mil a r p ri o r c a s e i s g e n e r all y n e c e s s a r y f o r t h e offi c e r
t o b e o n n oti c e t h at hi s c o n d u ct i s u nl a wf ul. S e e i d.
B ut “ oft e n” d o e s n ot m e a n “ al m o st al w a y s,” a n d i n
s o m e c a s e s t h e a p pli c ati o n of t h e l e g al r ul e i s cl e a r
e v e n i n t h e a b s e n c e of a p ri o r c a s e i n v ol vi n g si mil a r
f a ct s. Ulti m at el y, it i s t h e cl a rit y of t h e l e g al r ul e t h at
m att e r s. S e e i d.
H e r e, vi e wi n g t h e s u m m a r y j u d g m e nt r e c o r d i n
t h e li g ht
m o st f a v o r a bl e t o
M r.
H o w s e, t h e
u nl a wf ul n e s s of D et e cti v e Mi d d a u g h’ s c o n d u ct i s cl e a r
b a s e d o n t h e g e n e r al r ul e s e st a bli s h e d b y t hi s C o u rt’ s
p r e c e d e nt. T h e r ul e t h at a n offi c e r c a n n ot a r r e st
s o m e o n e i n t h e a b s e n c e of p r o b a bl e c a u s e i s cl e a rl y
e st a bli s h e d , s e e, e. g., B r o w n , 4 4 3 U. S. 4 7, 5 1 ( 1 9 7 9),
a n d t h e p a n el m aj o rit y a c k n o wl e d g e d a s m u c h. A p p. 9
n. 1. T h at r ul e al o n e s u p pli e s t h e r e q ui sit e cl e a rl y
e st a bli s h e d l a w b e c a u s e it i s u n di s p ut e d t h at
D et e cti v e Mi d d a u g h di d n ot h a v e p r o b a bl e c a u s e t o
a r r e st
M r.
H o w s e. P r o b a bl e c a u s e r e q ui r e s a
“‘ r e a s o n a bl e g r o u n d f o r b eli ef of g uilt’” t h at i s

22
“ p a rti c ul a ri z e d wit h r e s p e ct t o t h e p e r s o n t o b e
s e a r c h e d o r s ei z e d.” M a r yl a n d v. P ri n gl e , 5 4 0 U. S.
3 6 6, 3 7 1 ( 2 0 0 3). M r. H o w s e w a s si m pl y u si n g hi s o w n
k e y t o e nt e r hi s o w n r e si d e n c e, a s h e r e p e at e dl y t ol d
D et e cti v e Mi d d a u g h. T h e r ef o r e, D et e cti v e Mi d d a u g h
h a d n o r e a s o n a bl e a n d p a rti c ul a ri z e d g r o u n d s t o
b eli e v e M r. H o w s e h a d c o m mitt e d a c ri m e. S e e i d .
E v e n if D et e cti v e Mi d d a u g h h a d n ot a r r e st e d
M r. H o w s e, h e w o ul d h a v e n e e d e d r e a s o n a bl e
s u s pi ci o n f o r a T e r r y st o p. A s a m att e r of cl e a rl y
e st a bli s h e d l a w, h e h a d n o s u c h r e a s o n a bl e s u s pi ci o n
b e c a u s e h e h a d n o i n di vi d u ali z e d b a si s f o r s u s p e cti n g
M r. H o w s e of c ri mi n al w r o n g d oi n g b ef o r e t elli n g hi m
h e w a s g oi n g t o j ail, o r d e ri n g hi m t o p ut hi s h a n d s
b e hi n d hi s b a c k, a n d t h r o wi n g hi m t o t h e g r o u n d.
D et e r mi ni n g h o w m u c h i n di vi d u al i z e d s u s pi ci o n i s
e n o u g h m a y n o r m all y r e q ui r e a p ri o r c a s e wit h si mil a r
f a ct s t o p ut a r e a s o n a bl e offi c e r o n n oti c e t h at hi s
c o n d u ct i s u nl a wf ul. B ut n o si mil a r c a s e i s r e q ui r e d
w h e n , a s h e r e, a n offi c e r h a s n o i n di vi d u ali z e d
s u s pi ci o n at all b e c a u s e t h e n e e d f o r s o m e
i n di vi d u ali z e d s u s pi ci o n i s cl e a rl y e st a bli s h e d b y t hi s
C o u rt’ s p r e c e d e nt. S e e, e. g. , E d m o n d , 5 3 1 U. S. at 3 7.
T hi s C o u rt’ s p r e c e d e nt al s o cl e a rl y e st a bli s h e s
t h at
Offi c e r
Mi d d a u g h
vi ol at e d t h e
F o u rt h
A m e n d m e nt b y u si n g e x c e s si v e f o r c e i n a r r e sti n g M r.
H o w s e.
Gr a h a m
p r o hi bit s
t he
“ o bj e cti v el y
u n r e a s o n a bl e” u s e of f o r c e d u ri n g a s ei z u r e, 4 9 0 U. S.
at 3 9 7 , w hi c h “ r e q ui r e s a b al a n ci n g of ‘t h e n at u r e a n d
q u alit y of t h e i nt r u si o n o n t h e i n di vi d u al’ s F o u rt h
A m e n d m e nt i nt e r e st s a g ai n st t h e i m p o rt a n c e of t h e
g o v e r n m e nt al i nt e r e st s all e g e d t o j u stif y t h e
i nt r u si o n.’” T ol a n , 5 7 0 U. S. at 6 5 6 ( q u oti n g G a r n e r ,

23
4 7 1 U. S. at 8) ( a d diti o n al q u ot ati o n m a r k s o mitt e d).
T hi s i s a g e n e r al st a n d a r d, b ut “‘ g e n e r al st at e m e nt s o f
t h e l a w a r e n ot i n h e r e ntl y i n c a p a bl e of gi vi n g f ai r a n d
cl e a r w a r ni n g’ t o offi c e r s.” W hit e , 1 3 7 S. Ct. at 5 5 2
( cit ati o n s a n d alt e r ati o n s o mitt e d). A n d t hi s C o u rt h a s
r e c o g ni z e d t h at G r a h a m a n d G a r n e r a r e t h e m s el v e s
s uffi ci e nt i n o b vi o u s c a s e s. S e e W hit e , 1 3 7 S. Ct. at
5 5 2. I n d e e d, i n T ol a n , t h e C o u rt cit e d t h e g e n e r al
st a n d a r d s di s c u s s e d i n G r a h a m a n d G a r n e r a s s etti n g
f o rt h t h e r el e v a nt r ul e f o r q u alifi e d i m m u nit y
p u r p o s e s wit h o ut a n y el a b o r ati o n of t h o s e b a si c
p ri n ci pl e s. S e e T ol a n , 5 7 2 U. S. at 6 5 6.
T hi s i s a n o b vi o u s c a s e u n d e r G r a h a m a n d
G a r n e r . It i s b e y o n d d e b at e t h at b ei n g t h r o w n t o t h e
g r o u n d w hil e e nt e ri n g o n e’ s o w n h o m e i s a s u b st a nti al
“‘i nt r u si o n o n [ a n] i n di vi d u al’ s F o u rt h A m e n d m e nt
i nt e r e st s.’” T ol a n , 5 7 2 U. S. at 6 5 6. Vi e wi n g t h e
s u m m a r y j u d g m e nt r e c o r d i n t h e li g ht m o st f a v o r a bl e
t o M r. H o w s e, t h at s u b st a nti al i nt r u si o n w a s n ot
s u p p o rt e d b y a n y “ g o v e r n m e nt al i nt e r e st[] all e g e d t o
j u stif y t h e i nt r u si o n,” b e c a u s e M r. H o w s e h a d d o n e
n ot hi n g t o s u g g e st h e h a d vi ol at e d t h e l a w o r p o s e d a
d a n g e r t o a n y o n e.
G r a h a m al s o i d e ntifi e d t h e f oll o wi n g f a ct o r s t o
c o n si d e r i n a n al y zi n g w h et h e r a n offi c e r’ s u s e of f o r c e
w a s u n c o n stit uti o n all y e x c e s si v e: t h e s e v e rit y of t h e
c ri m e at i s s u e, w h et h e r t h e p e r s o n s ei z e d p o s e s a n
i m m e di at e t h r e at t o t h e s af et y of offi c e r s o r ot h e r s,
a n d w h et h e r t h e p e r s o n i s a cti v el y r e si sti n g o r
att e m pti n g t o fl e e. G r a h a m , 4 9 0 U. S. at 3 9 6. A s C hi ef
J u d g e C ol e e x pl ai n e d i n di s s e nt, all of t h e s e f a ct o r s
f a v o r M r. H o w s e: ( 1) “ H o w s e di d n ot c o m mit ( a n d
D et e cti v e Mi d d a u g h h a d n o r e a s o n t o b eli e v e h e h a d

24
c o m mitt e d) a n y c ri m e”; ( 2) t h e r e i s n o e vi d e n c e t h at
M r. H o w s e “ p o s e d a n i m m e di at e t h r e at t o t h e s af et y
of a n y offi c e r” o r a n y o n e el s e; a n d ( 3) M r. H o w s e di d
n ot r e si st o r att e m pt t o fl e e p ri o r t o b ei n g t a c kl e d, “ a s
h e w a s i m m e di at el y t h r o w n t o t h e g r o u n d b y
Mi d d a u g h.” A p p. 2 5.
Wit h o ut citi n g G r a h a m o r a d d r e s si n g a n y of
t h e s e f a ct o r s, t h e p a n el m aj o rit y g r a nt e d q u alifi e d
i m m u nit y t o D et e cti v e Mi d d a u g h b a s e d o n t h e l a c k of
a p ri o r c a s e wit h si mil a r f a ct s. S e e A p p. 9. I n s o d oi n g,
t h e Si xt h Ci r c uit c o nt r a v e n e d t hi s C o u rt’ s p r e c e d e nt
t h at G r a h a m it s elf e st a bli s h e s cl e a r l a w i n o b vi o u s
c a s e s. W hit e , 1 3 7 S. Ct. at 5 5 2. I n a d diti o n, t h e Si xt h
Ci r c uit c r e at e d a ci r c uit s plit wit h s e v e r al ot h e r
ci r c uit s, w hi c h h a v e r e c o g ni z e d t h at G r a h a m p ut
offi c e r s o n n oti c e t h at it c o n stit ut e d e x c e s si v e f o r c e t o
t a c kl e a s u s p e ct u n d e r f a ct u al ci r c u m st a n c e s
a n al o g o u s t o t hi s c a s e .
I n R ai c h e v. Pi et r o s ki , 6 2 3 F. 3 d 3 0 ( 2 0 1 0), t h e
Fi r st Ci r c uit h el d t h at t a c kli n g t h e pl ai ntiff w a s a n
u n c o n stit uti o n al u s e of e x c e s si v e f o r c e b e c a u s e h e h a d
d o n e n ot hi n g t o s u g g e st t h e u s e of s u c h f o r c e w a s
j u stifi e d. S e e i d . at 3 8– 3 9. T h e c o u rt h el d t h at t h e f a ct s
s h o w e d “‘ s u c h a n o b vi o u s vi ol ati o n of t h e F o u rt h
A m e n d m e nt’ s g e n e r al p r o hi biti o n o n u n r e a s o n a bl e
f o r c e t h at a r e a s o n a bl e offi c e r w o ul d n ot h a v e r e q ui r e d
p ri o r c a s e l a w o n p oi nt t o b e o n n oti c e t h at hi s c o n d u ct
w a s u nl a wf ul.’” I d . ( cit ati o n o mitt e d). Si mil a rl y, i n
M o r ri s v. N o e , t h e T e nt h Ci r c uit h el d t h at G r a h a m
it s elf e st a bli s h e d t h at a n offi c e r vi ol at e d t h e F o u rt h
A m e n d m e nt’ s p r o hi biti o n o n e x c e s si v e f o r c e b y
t a c kli n g a p e r s o n i n o r d e r t o m a k e a n a r r e st, w h e n t h e
p e r s o n “ p o s e d n o t h r e at t o [t h e offi c e r] o r ot h e r s, n o r

25
di d h e r e si s t o r fl e e,” e v e n t h o u g h — u nli k e h e r e — t h e
p e r s o n h a d w al k e d t o w a r d a g r o u p of offi c e r s a n d
a s k e d t h e m a “ p ot e nti all y c o nf r o nt ati o n al q u e sti o n.”
6 7 2 F. 3 d 1 1 8 5, 1 1 9 8 ( 2 0 1 2). T h e C o u rt of A p p e al s
c o n cl u d e d t h at t h e ri g ht at q u e sti o n “ w a s cl e a rl y
e st a bli s h e d, e v e n i n t h e a b s e n c e of si mil a r p ri o r
c a s e s,” b e c a u s e “t h e f o r c e [ w a s] cl e a rl y u nj u stifi e d
b a s e d o n t h e G r a h a m f a ct o r s.” I d . at 1 1 9 7. Fi n all y, i n
Bl a n k e n h o r n v. Cit y of O r a n g e , 4 8 5 F. 3 d 4 6 3, 4 7 8– 7 9
( 2 0 0 7), t h e Ni nt h Ci r c uit r e a c h e d a si mil a r c o n cl u si o n
r el yi n g s ol el y o n t h e G r a h a m f a ct o r s i n a c a s e w h e r e
m ulti pl e offi c e r s t a c kl e d a s u s p e ct, e v e n t h o u g h t h e
s u s p e ct h a d f ail e d t o c o m pl y wit h a v e r b al o r d e r b y t h e
offi c e r s.
A s J u d g e M c C o n n ell p ut it i n a n ot h e r c a s e,
e v e n i n t h e a b s e n c e of a “ si mil a r f a ct u al sit u ati o n,”
G r a h a m m a k e s cl e a r t h at a n offi c e r i s “ n ot e ntitl e d t o
i m m u nit y f r o m a n e x c e s si v e f o r c e cl ai m” w h e n t h e r e
a r e “‘ n o s u b st a nti al g r o u n d s f o r a r e a s o n a bl e offi c e r t o
[ b eli e v e] t h at t h e r e w a s l e giti m at e j u stifi c ati o n f o r’ hi s
c o n d u ct.” C a s e y v. Cit y of F e d e r al H ei g ht s , 5 0 9 F. 3 d
1 2 7 8, 1 2 8 4 – 8 5 ( 1 0t h Ci r. 2 0 0 7) ( cit ati o n o mitt e d ). B y
f aili n g t o r e c o g ni z e a n d a p pl y t h at p ri n ci pl e h e r e, t h e
Si xt h Ci r c uit b ot h c o nt r a v e n e d t hi s C o u rt’ s p r e c e d e nt
a n d c r e at e d a ci r c uit s plit.
T hi s C o u rt h a s r e c o g ni z e d t h e i m p o rt a n c e of
g r a nti n g r e vi e w w h e n t h e f e d e r al a p p ell at e c o u rt s
mi s a p p r e h e n d it s q u alifi e d i m m u nit y p r e c e d e nt. S e e,
e. g. , W hit e , 1 3 7 S. Ct. at 5 5 1; T ol a n , 5 7 2 U. S. at 6 5 9;
s e e al s o S al a z a r -Li m o n v. Cit y of H o u st o n , 1 3 7 S. Ct.
at 1 2 7 7 ( Alit o, J., j oi n e d b y T h o m a s, J., c o n c u r ri n g i n
d e ni al of c e rti o r a ri). Gi v e n t h e cl a rit y of t h e e r r o r s
d e s c ri b e d a b o v e, t h e C o u rt s h o ul d g r a nt r e vi e w i n t hi s

26
c a s e a n d eit h e r s u m m a ril y r e v e r s e o r s c h e d ul e t h e
c a s e f o r m e rit s b ri efi n g a n d a r g u m e nt t o c o n si d e r b ot h
i s s u e s p r e s e nt e d b y t h e p etiti o n.
I I.

T he
Si x t h
Ci r c ui t’ s
M ali ci o u s
P r o s e c u ti o n R uli n g C o n t r a v e n e s t hi s
C o u r t’ s
P r e c e d e nt a n d
C r e at e s a
Ci r c ui t S pli t .

Li k e
m o st ci r c uit s, t h e
Si xt h
Ci r c uit
“ r e c o g ni z e[ s] a . . . c o n stit uti o n all y c o g ni z a bl e cl ai m of
m ali ci o u s
p r o s e c uti o n
u n d er
t he
F o u rt h
2
A m e n d m e nt ,”
w hi c h
“ e nc o m p ass es
w r o n gf ul
i n v e sti g ati o n,
p r o s e c uti o n,
c o n vi cti o n,
and
i n c a r c e r ati o n.” S y k e s v. A n d e r s o n , 6 2 5 F. 3 d 2 9 4, 3 0 8
( 6t h Ci r. 2 0 1 0). T o p r e v ail o n s u c h a cl ai m , a pl ai ntiff
m u st p r o v e ( 1) t h at a c ri mi n al p r o s e c uti o n w a s
i niti at e d a g ai n st t h e m a n d t h at t h e d ef e n d a nt m a d e,
i nfl u e n c e d, o r p a rti ci p at e d i n t h e d e ci si o n t o
p r o s e c ut e; ( 2) t h at t h e r e w a s a l a c k of p r o b a bl e c a u s e
f o r t h e c ri mi n al p r o s e c uti o n; ( 3) t h at, a s a c o n s e q u e n c e
of t h e l e g al p r o c e e di n g, t h e pl ai ntiff s uff e r e d a
d e p ri v ati o n of li b e rt y a p a rt f r o m t h e i niti al s ei z u r e;
a n d ( 4) t h at t h e c ri mi n al p r o c e e di n g w a s r e s ol v e d i n
t h e pl ai ntiff’ s f a v o r. I d . at 3 0 8 – 0 9 .
T h e d e ci si o n b el o w affi r m e d t h e di s mi s s al of
M r. H o w s e’ s m ali ci o u s p r o s e c uti o n cl ai m b a s e d o n t h e
c o n cl u si o n t h at M r. H o w s e f ail e d t o s ati sf y o n e
2 I n Al b ri g ht v. Oli v e r , 5 1 0 U. S. 2 6 6 ( 1 9 9 4) ( p e r c u ri a m), t hi s
C o u rt r e s e r v e d t h e q u e sti o n w h et h e r a m ali ci o u s p r o s e c uti o n
cl ai m i s c o g ni z a bl e u n d e r t h e F o u rt h A m e n d m e nt. T e n ci r c uit s
a g r e e t h at it i s. B ut s e e M a n u el v. Cit y of J oli et, Ill. , 1 3 7 S. Ct.
9 1 1, 9 2 3 – 2 4 ( 2 0 1 7) ( Alit o, J., di s s e nti n g) ( a g r e ei n g wit h t h e
S e v e nt h Ci r c uit t h at s u c h cl ai m s a r e n ot c o g ni z a bl e) .

27
el e m e nt ( l a c k of p r o b a bl e c a u s e f o r a c ri mi n al
p r o s e c uti o n ) f o r o n e of t h e t h r e e c h a r g e s u n d e rl yi n g
hi s cl ai m (o b st r u cti o n of offi ci al b u si n e s s ). A p p. 1 0 – 1 3 .
T h e m aj o rit y c o n cl u d e d t h at b e c a u s e D et e cti v e
Mi d d a u g h h a d p r o b a bl e c a u s e t o c h a r g e M r. H o w s e
wit h o b st r u cti o n of offi ci al b u si n e s s, M r. H o w s e c o ul d
n ot p r o c e e d o n hi s m ali ci o u s p r o s e c uti o n cl ai m f o r t h e
a s s a ult c h a r g e s. I d . at 1 3.
T h e m aj o rit y’ s d e ci si o n w a r r a nt s r e vi e w b y t hi s
C o u rt f o r t w o r e a s o n s. Fi r st, t h e m aj o rit y’ s d e ci si o n
c r e at e s a cl e a r s plit of a ut h o rit y wit h ot h e r ci r c uit s.
M o st ot h e r ci r c uit s h a v e h el d t h at p r o b a bl e c a u s e t o
s u p p o rt o n e of
m ulti pl e c h a r g e s u n d e rl yi n g a
m ali ci o u s p r o s e c uti o n cl ai m d o e s n ot e xti n g ui s h a
pl ai ntiff’ s cl ai m wit h r e s p e ct t o ot h e r c h a r g e s w h e r e
t h e r e w a s n o p r o b a bl e c a u s e . S e e P o s r v. D o h e rt y , 9 4 4
F. 2 d 9 1 ( 2 d Ci r. 1 9 9 1); H ol m e s v. Vill a g e of H off m a n
E st at e , 5 1 1 F. 3 d 6 7 3 ( 7t h Ci r. 2 0 0 7); J o h n s o n v. K n o r r ,
4 7 7 F. 3 d 7 5 ( 3 d Ci r. 2 0 0 7); s e e al s o U b o h v. R e n o , 1 4 1
F. 3 d 1 0 0 0 ( 1 1t h Ci r. 1 9 9 8). T h e Si xt h Ci r c uit i s t h e
o nl y ci r c uit t o d efi niti v el y t a k e t h e o p p o sit e a p p r o a c h.
S e c o n d,
n ot wit h st a n di n g
t hi s
C o u rt’ s
c o n si st e nt t r e at m e nt of f al s e a r r e st a n d m ali ci o u s
p r o s e c uti o n cl a i m s a s “ e nti r el y di sti n ct,” W all a c e , 5 4 9
U. S. at 3 9 0, t h e m aj o rit y “ a d o pt[ e d] a o n e -si z e -fit s-all
a p p r o a c h t o f al s e a r r e st a n d m ali ci o u s p r o s e c uti o n”
cl ai m s, A p p. 6 7. T hi s C o u rt’ s i nt e r v e nti o n i s n e c e s s a r y
t o r e s ol v e t h e ci r c uit s plit a n d c o r r e ct t h e
i n c o n si st e n c y b et w e e n t h e d e ci si o n b el o w a n d t hi s
C o u rt’ s p r e c e d e nt .

28
A. T h e D e ci si o n B el o w C r e a t e s a Ci r c ui t
S pli t o n
W h e t h e r t h e E xi s t e n c e of
P r o b a bl e C a u s e t o S u p p o r t O n e of
M ul ti pl e C h a r g e s P r e cl u d e s a Pl ai n tiff
f r o m P u r s ui n g a M ali ci o u s P r o s e c u ti o n
Cl ai m f o r t h e R e m ai ni n g C h a r g e s .
I n t h e d e ci si o n b el o w, t h e m aj o rit y h el d t h at
b e c a u s e p r o b a bl e c a u s e s u p p o rt e d t h e mi s d e m e a n o r
o b st r u cti o n c h a r g e a g ai n st M r. H o w s e, t h e p a n el di d
n ot n e e d t o a s s e s s w h et h e r t h e r e m ai ni n g c h a r g e s
w e r e p r o s e c ut e d wit h p r o b a bl e c a u s e. S e e A p p. 1 3 .
T hi s i s a n a n o m al y a m o n g t h e ci r c uit c o u rt s, m o st of
w hi c h all o w m ali ci o u s p r o s e c uti o n cl ai m s t o p r o c e e d
e v e n w h e r e p r o b a bl e c a u s e e xi st e d f o r at l e a st o n e of
s e v e r al u n d e rl yi n g c h a r g e s .
T h e S e c o n d, T hi r d, a n d S e v e nt h Ci r c uit s h a v e
all e x p r e s sl y h el d t h at c o u rt s s h o ul d a s s e s s p r o b a bl e
c a u s e f o r e a c h c h a r g e u n d e rl yi n g a
m ali ci o u s
p r o s e c uti o n cl ai m i n d e p e n d e ntl y, a n d t h at m ali ci o u s
p r o s e c uti o n cl ai m s m a y p r o c e e d w h e r e p r o b a bl e c a u s e
e xi st e d f o r at l e a st o n e — b ut n ot all — of m ulti pl e
u n d e rl yi n g c h a r g e s . I n P o s r v. D o h e rt y , 9 4 4 F. 2 d 9 1,
1 0 0 ( 2 d Ci r. 1 9 9 1), t h e S e c o n d Ci r c uit o r d e r e d a n e w
t ri al o n t h e i s s u e of w h et h e r a n offi c e r w a s li a bl e f o r
m ali ci o u s p r o s e c uti o n. P o s r h a d b e e n c h a r g e d wit h
di s o r d e rl y c o n d u ct, r e si sti n g a r r e st, a n d a s s a ulti n g a n
offi c e r; all c h a r g e s w e r e ulti m at el y di s mi s s e d o n t h e
m oti o n of t h e p r o s e c ut o r. I d . at 9 4. P o s r t h e n s u e d t w o
offi c e r s f o r m ali ci o u s p r o s e c uti o n, a m o n g ot h e r cl ai m s.
I d . at 9 5. At t ri al, t h e di st ri ct c o u rt i n st r u ct e d t h e j u r y
t h at if it “f o u n d p r o b a bl e c a u s e s u p p o rti n g a n y of t h e
t h r e e c h a r g e s of di s o r d e rl y c o n d u ct, r e si sti n g a r r e st

29
a n d a s s a ult l o d g e d a g ai n st P o s r, n o li a bilit y f o r
m ali ci o u s p r o s e c uti o n c o ul d b e f o u n d a s t o a n y of t h e
c h a r g e s fil e d.” I d . at 1 0 0.
T h e S e c o n d Ci r c uit h el d t h at t he di st ri ct c o u rt’ s
i n st r u cti o n s w e r e i m p r o p e r b e c a u s e t h e y di d n ot
i n st r u ct t h e j u r y t o “ s e p a r at el y a n al y z e t h e c h a r g e s
cl ai m e d t o h a v e b e e n m ali ci o u sl y p r o s e c ut e d.” I d . T h e
c o u rt r e a s o n e d t h at it “ s h o ul d n ot all o w a fi n di n g of
p r o b a bl e c a u s e o n [t h e di s o r d e rl y c o n d u ct] c h a r g e” — a
l e s s e r c h a r g e t h a n r e si sti n g a r r e st a n d a s s a ulti n g a n
offi c e r — “t o f o r e cl o s e a m ali ci o u s p r o s e c uti o n c a u s e of
a cti o n o n c h a r g e s r e q ui ri n g diff e r e nt, a n d m o r e
c ul p a bl e, b e h a vi o r.” I d . T o h ol d ot h e r wi s e, t h e c o u rt
o b s e r v e d, w o ul d p e r mit “ a n offi c e r wit h p r o b a bl e
c a u s e a s t o a l e s s e r off e n s e [t o] t a c k o n m o r e s e ri o u s,
u nf o u n d e d c h a r g e s w hi c h w o ul d s u p p o rt a hi g h [ e r]
b ail o r a l e n gt h y d et e nti o n, k n o wi n g t h at t h e p r o b a bl e
c a u s e o n t h e l e s s e r off e n s e w o ul d i n s ul at e hi m f r o m
li a bilit y f o r m ali ci o u s p r o s e c uti o n o n t h e ot h e r
off e n s e s.” I d .
I n J o h n s o n v. K n o r r , 4 7 7 F. 3 d 7 5, 8 4 ( 3 d Ci r.
2 0 0 7), t h e T hi r d Ci r c uit t o o k t h e s a m e a p p r o a c h a n d
r e v e r s e d a di st ri ct c o u rt’ s h ol di n g t h at t h e e xi st e n c e of
p r o b a bl e c a u s e f o r o n e c h a r g e b a r r e d t h e pl ai ntiff f r o m
m ai nt ai ni n g a m ali ci o u s p r o s e c uti o n cl ai m f o r ot h e r
c h a r g e s. T h e T hi r d Ci r c uit a g r e e d wit h t h e S e c o n d
Ci r c uit ’ s d e ci si o n i n P o s r . It e x pl ai n e d t h at a c o nt r a r y
r uli n g w o ul d all o w offi c e r s t o t a c k o n m o r e s e ri o u s a n d
u nf o u n d e d c h a r g e s f o r w hi c h t h e r e w a s n ot p r o b a bl e
c a u s e “ eit h e r f o r t h e a r r e st o r f o r [t h e] i niti ati o n of t h e
c ri mi n al p r o c e e di n g s m e r el y b e c a u s e t h e r e w a s
p r o b a bl e c a u s e f o r t h e a r r e st o n a n y c h a r g e.” I d .

30
T h e T hi r d Ci r c uit al s o s p e cifi c all y r ej e ct e d t h e
r e a s o ni n g a d o pt e d b y t h e m aj o rit y i n t hi s c a s e, i. e., t h e
p a n el’ s c o m p a ri s o n of m ali ci o u s p r o s e c uti o n cl ai m s t o
f al s e a r r e st cl ai m s. I n K n o r r , t h e c o u rt e x pl ai n e d t h at
r e q ui ri n g a c h a r g e -b y -c h a r g e a n al y si s of p r o b a bl e
c a u s e u n d e rl yi n g a m ali ci o u s p r o s e c uti o n cl ai m “i s n ot
i n c o n si st e nt wit h t h e p ri n ci pl e t h at, i n a n al y zi n g f al s e
a r r e st cl ai m s,” a c o u rt c a n i n s ul at e a d ef e n d a nt f r o m
li a bilit y b y fi n di n g “ o nl y t h at p r o b a bl e c a u s e e xi st e d
a s t o a n y off e n s e t h at c o ul d b e c h a r g e d u n d e r t h e
ci r c u m st a n c e s.” I d . at 8 4– 8 5 ( alt e r ati o n s o mitt e d). F o r
f al s e a r r e st cl ai m s, t h e e xi st e n c e of p r o b a bl e c a u s e f o r
o n e off e n s e j u stifi e s t h e a r r e st e v e n if t h e r e w a s
i n s uffi ci e nt c a u s e t o a r r e st o n t h e ot h e r off e n s es. I d.
at 8 5 . T h e s a m e i s n ot t r u e i n t h e m ali ci o u s
p r o s e c uti o n c o nt e xt, w h e r e t h e e xi st e n c e of p r o b a bl e
c a u s e t o c h a r g e a n d p r o s e c ut e o n o n e off e n s e d o e s n ot
j u stif y t h e ot h e r c h a r g e s f o r w hi c h t h e r e i s n o p r o b a bl e
c a u s e. S e e i d .
T h e S e v e nt h Ci r c uit a g r e e d i n H ol m e s v.
Vill a g e of H off m a n E st at e , 5 1 1 F. 3 d 6 7 3 ( 7t h Ci r.
2 0 0 7), t h at if a p e r s o n i s p r o s e c ut e d o n m ulti pl e
c h a r g e s, t h e b a si s f o r e a c h c h a r g e m u st b e e x a mi n e d
s e p a r at el y . A n d if p r o b a bl e c a u s e i s l a c ki n g a s t o a n y
c h a r g e, t h e d ef e n d a nt s c a n still b e li a bl e f o r m ali ci o u s
p r o s e c uti o n o n t h e u n s u p p o rt e d c h a r g e. It e x pl ai n e d
t h at “[l]o gi c s u p p o rt s” di sti n g ui s hi n g b et w e e n
m ali ci o u s p r o s e c uti o n a n d f al s e a r r e st i n t hi s c o nt e xt.
I d . at 6 8 2. “ A n a r r e st e d i n di vi d u al i s n o m o r e s ei z e d
w h e n h e i s a r r e st e d o n t h r e e g r o u n d s r at h e r t h a n o n e;
a n d s o l o n g a s t h e r e i s a r e a s o n a bl e b a si s f o r t h e
a r r e st, t h e s ei z u r e i s j u stifi e d o n t h at b a si s e v e n if a n y
ot h e r g r o u n d cit e d f o r t h e a r r e st w a s fl a w e d.” I d . B ut

31
w h e n it c o m e s t o p r o s e c uti o n, t h e n u m b e r a n d n at u r e
of t h e c h a r g e s m att e r: “t h e a c c u s e d m u st i n v e sti g at e
a n d p r e p a r e a d ef e n s e t o e a c h c h a r g e, a n d a s t h e li st
of c h a r g e s l e n gt h e n s ( al o n g wit h t h e s e nt e n c e t o w hi c h
t h e a c c u s e d i s e x p o s e d), t h e c o st a n d p s y c hi c t oll of t h e
p r o s e c uti o n o n t h e a c c u s e d i n c r e a s e.” I d . F u rt h e r,
“ w h e n a n offi c e r p r e p a r e s a n d si g n s a c ri mi n al
c o m pl ai nt, h e t y pi c all y will h a v e
m o r e of a n
o p p o rt u nit y t o r efl e ct o n t h e n at u r e a n d r a mifi c ati o n s
of t h e a c c u s e d’ s c o n d u ct t h a n h e di d i n m a ki n g t h e
a r r e st.” I d . at 6 8 3. T h u s, t h e S e v e nt h Ci r c uit
c o n cl u d e d t h at it i s “ r e a s o n a bl e t o d e m a n d t h at e a c h
c h a r g e t h at a p oli c e offi c e r el e ct s t o l o d g e a g ai n st t h e
a c c u s e d b e s u p p o rt e d b y p r o b a bl e c a u s e.” I d.
Ot h e r ci r c uit s h a v e i m pli citl y a d o pt e d t hi s
s a m e c h a r g e -b y -c h a r g e a p p r o a c h f o r
m ali ci o u s
p r o s e c uti o n cl ai m s. I n U b o h v. R e n o , 1 4 1 F. 3 d 1 0 0 0
( 1 1t h Ci r. 1 9 9 8), t h e El e v e nt h Ci r c uit c o n si d e r e d
w h et h e r a p r o s e c ut o r’ s di s mi s s al of o n e of m ulti pl e
c h a r g e s i n a n i n di ct m e nt c o u nt e d a s “f a v o r a bl e
t e r mi n ati o n” f o r a m ali ci o u s p r o s e c uti o n cl ai m. T h e
pl ai ntiff h a d b e e n c o n vi ct e d of t h e ot h e r c h a r g e s s et
f o rt h in t h e i n di ct m e nt, b ut t h e El e v e nt h Ci r c uit
p e r mitt e d hi s m ali ci o u s p r o s e c uti o n cl ai m f o r t h e
di s mi s s e d c h a r g e s t o p r o c e e d. I d . at 1 0 0 6; a c c o r d
El m o r e v. F ult o n C o u nt y S c h o ol Di st. , 6 0 5 F. A p p’ x.
9 0 6 ( 1 1t h Ci r. 2 0 1 5) ( o b s e r vi n g t h at “[ g] e n e r all y , i n
c o nt r a st t o f al s e -a r r e st cl ai m s, p r o b a bl e c a u s e a s t o
o n e c h a r g e will n ot b a r a m ali ci o u s p r o s e c uti o n cl ai m
b a s e d o n a s e c o n d, di sti n ct c h a r g e a s t o w hi c h
p r o b a bl e c a u s e w a s l a c ki n g”). I n L a s sit e r v. Cit y of
B r e m e rt o n , 5 5 6 F. 3 d 1 0 4 9, 1 0 5 4 ( 9t h Ci r. 2 00 9), t h e
Ni nt h Ci r c uit di s mi s s e d a m ali ci o u s p r o s e c uti o n

32
cl ai m , b ut o nl y aft e r s e p a r at el y a n al y zi n g all of t h e
u n d e rl yi n g c h a r g e s a n d d et e r mi ni n g t h at e a c h w a s
s u p p o rt e d b y p r o b a bl e c a u s e. A n d i n Ri v e r a -M a r c a n o
v. N o r m e at R o y al D a n e Q u alit y , 9 9 8 F. 2 d 3 4 ( 1st Ci r.
1 9 9 3), t h e Fi r st Ci r c uit a c k n o wl e d g e d t h e p r e v aili n g
vi e w of ot h e r ci r c uit s t h at p e r mit s a “ pl ai ntiff [t o]
m ai nt ai n a m ali ci o u s p r o s e c uti o n a cti o n b a s e d o n o n e
g r o u n dl e s s a c c u s ati o n, w h e n p r o b a bl e c a u s e e xi st e d
f o r o n e o r m o r e ot h e r a c c u s ati o n s m a de c o n c u r r e ntl y.”
I d . at 3 8 ( citi n g P o s r ); a c c o r d M e n d o n c a v. Cit y of
P r o vi d e n c e , 1 7 0 F. S u p p. 3 d 2 9 0, 3 0 2 ( D. R. I. M a r. 1 5,
2 0 0 6) ( o b s e r vi n g t h at “ w hil e t h e Fi r st Ci r c uit h a s n ot
d efi niti v el y r ul e d o n t h e s u bj e ct, it h a s a c k n o wl e d g e d
[t h e] t r e n d” of p e r mitti n g m ali ci o u s p r o s e c uti o n
cl ai m s f o r di sti n ct c h a r g e s w h e r e at l e a st o n e c h a r g e
di d a ri s e f r o m p r o b a bl e c a u s e).
T h e T e nt h Ci r c uit h a s at ti m e s r e c o g ni z e d a n d
a p pli e d t h e c h a r g e -b y -c h a r g e a p p r o a c h a s t h e
p r e v aili n g o n e , a n d at ot h e r ti m e s it h a s n ot. I n Mi ll e r
v. S pi e r s , 3 3 9 F. A p p’ x 8 6 2 ( 1 0t h Ci r. 2 0 0 9), t h e c o u rt
r e c o g ni z e d t h at u n d e r t h e c o m m o n l a w of m ali ci o u s
p r o s e c uti o n, a pl ai ntiff c a n “ c h all e n g e p r o s e c uti o n s o n
a c h a r g e -b y -c h a r g e b a si s.” I d . at 8 6 7. B e c a u s e of t hi s,
t h e p a n el h el d t h at t h e pl ai ntiff ’ s c o n vi cti o n s f o r o n e
c h a r g e “[ di d] n ot n e c e s s a ril y f o r e cl o s e hi s m ali ci o u s
p r o s e c uti o n cl ai m c o n c e r ni n g t h e c h a r g e s t h at w e r e
ulti m at el y di s mi s s e d.” I d . at 8 6 8. T h e c o u rt i n V a n D e
W e g h e v. C h a m b e r s , 5 6 9 F. A p p’ x 6 1 7 ( 1 0t h Ci r. 2 0 1 4)
( G o r s u c h, J.), n ot e d t h at Mill e r , a s a n u n p u bli s h e d
o pi ni o n, w a s n ot bi n di n g l a w a n d h el d t h at offi c e r s
w e r e e ntitl e d t o q u alifi e d i m m u nit y b e c a u s e t h e
pl ai ntiff h a d n ot i d e ntif i e d a n y cl e a rl y e st a bli s h e d l a w
“ s u g g e sti n g t h at a cl ai m f o r m ali ci o u s p r o s e c uti o n li e s

33
w h e n o n e c h a r g e i s s u p p o rt e d b y p r o b a bl e c a u s e b ut
ot h e r si m ult a n e o u s c h a r g e s a ri si n g f r o m t h e s a m e s et
of f a ct s a r e n ot.” I d . at 6 1 9. I n s o h ol di n g, t h e n-J u d g e
G o r s u c h r e c o g ni z e d t h at t h e T e nt h Ci r c uit h a d n ot
“ d efi niti v el y s p o k e n t o t h e q u e sti o n eit h e r w a y” a n d
o utli n e d t h e di v e r gi n g a p p r o a c h e s a m o n g t h e ci r c uit s
o n t h e i s s u e. I d . at 6 2 0.3
T h e Fift h a n d Ei g ht h Ci r c uit s h a v e e x p r e s sl y
l eft t h e q u e sti o n o p e n. S e e C olli n s v. D o yl e , 2 0 9 F. 3 d
7 1 9 n. 1 5 ( 5t h Ci r. 2 0 0 0) ( “ e x p r e s sl y r e s e r v[i n g]” t h e
q u e sti o n w h et h e r a c h a r g e -b y -c h a r g e a n al y si s of
p r o b a bl e c a u s e i s a p p r o p ri at e); H a r ri n gt o n v. Cit y of
C o u n cil Bl uff s, I o w a , 6 7 8 F. 3 d 6 7 6, 6 8 0 n. 5 ( 8t h Ci r.
2 0 1 2) ( d e cli ni n g t o a d d r e s s a r g u m e nt s a b o ut w h et h e r
p r o b a bl e c a u s e t o s u s p e ct pl ai ntiff s of c a r t h eft w a s
s uffi ci e nt t o d ef e at a m ali ci o u s p r o s e c uti o n cl ai m
b a s e d o n p r o s e c uti o n f o r m u r d e r wit h o ut p r o b a bl e
c a u s e); i d. at 6 8 3 ( C oll ot o n, J., di s s enti n g)
( hi g hli g hti n g “ c o nfli cti n g si g n al s” i n t h e c a s e l a w
a b o ut w h et h e r t h e e xi st e n c e of p r o b a bl e c a u s e t o
a r r e st f o r o n e cl ai m w o ul d d ef e at s o m e o r all of t h e
pl ai ntiff s’ m ali ci o u s p r o s e c uti o n cl ai m s).
M o st ci r c uit s t o c o n si d e r t h e i s s u e h a v e
c o al e s c e d a r o u n d t h e p ri n ci pl e t h at a m ali ci o u s
p r o s e c uti o n cl ai m wit h m ulti pl e u n d e rl yi n g c h a r g e s
d o e s n ot f ail si m pl y b e c a u s e t h e r e w a s p r o b a bl e c a u s e
t o s u p p o rt o n e of t h e u n d e rl yi n g c h a r g e s. T h e Si xt h
Ci r c uit st a n d s al o n e i n e x p r e s sl y c o n cl u di n g
ot h e r wi s e. T hi s C o u rt s h o ul d r e vi e w t hi s c a s e t o u nif y
t h e ci r c uit c o u rt s’ a p p r o a c h t o t h e s e cl ai m s.
T h e p a n el m aj o rit y r e s ol v e d M r. H o w s e’ s m ali ci o u s p r o s e c uti o n
cl ai m s o n t h e m e rit s a n d di d n ot di s c u s s t h e “ cl e a rl y e st a bli s h e d
l a w” p r o n g of t h e q u alifi e d i m m u nit y i n q ui r y.

3

34
B. T h e D e ci si o n B el o w C o n t r a di c t s T hi s
C o u r t’ s
Diff e r e n ti al
T r e at m e nt
of
M ali ci o u s P r o s e c u ti o n a n d F al s e A r r e s t
Cl ai m s .
I n W all a c e v. K at o , t hi s C o u rt e x pl ai n e d t h at
t h e t o rt s of m ali ci o u s p r o s e c uti o n a n d f al s e a r r e st a r e
“ e nti r el y di sti n ct.” 5 4 9 U. S. at 3 9 0. T h e c o n stit uti o n al
t o rt of f al s e a r r e st “ c o n si st s of d et e nti o n wit h o ut l e g al
p r o c e s s,” i d. at 3 8 9– 3 9 0 , w hil e t h e c o n stit uti o n al t o rt
of
m ali ci o u s p r o s e c uti o n c o n si st s of “ d et e nti o n
a c c o m p a ni e d . . . b y w r o n gf ul i n stit uti o n of l e g al
p r o c e s s.” I d . at 3 9 0 ( alt e r n ati o n a n d f o ot n ot e o mitt e d).
T hi s di sti n cti o n i s al s o e vi d e nt i n ot h e r c a s e s f r o m t hi s
C o u rt. I n H e c k v. H u m p h r e y , 5 1 2 U. S. 4 7 7, 4 8 4 ( 1 9 9 4),
t hi s C o u rt c h a r a ct e ri z e d m ali ci o u s p r o s e c uti o n cl ai m s
a s “ u nli k e t h e r el at e d c a u s e of a cti o n f o r f al s e a r r e st
o r i m p ri s o n m e nt” i n d et e r mi ni n g t h e st at ut e - ofli mit ati o n s a c c r u al d at e f o r t h e f o r m e r cl ai m.
I n c o nt r a st t o t hi s C o u rt’ s di sti n ct t r e at m e nt of
f al s e a r r e st a n d m ali ci o u s p r o s e c uti o n cl ai m s, t h e
d e ci si o n b el o w h el d t h at F o u rt h
A m e n d m e nt
m ali ci o u s p r o s e c uti o n cl ai m s m u st b e t r e at e d li k e
f al s e a r r e st cl ai m s b e c a u s e of a p u r p o rt e d e q ui v al e n c e
b et w e e n t h e t w o cl ai m s:
[ C]l ai m s f o r f al s e a r r e st a n d m ali ci o u s
p r o s e c uti o n b ot h a ri s e u n d e r t h e F o u rt h
A m e n d m e nt. T h e y b ot h hi n g e o n a n
all e g e d u n r e a s o n a bl e s ei z u r e. A n d t h e y
b ot h ri s e a n d f all o n w h et h e r t h e r e w a s
p r o b a bl e c a u s e s u p p o rti n g t h e d et e nti o n.

35
I n d e e d, j u st li k e i n t h e c o nt e xt of f al s e
a r r e st s, a p e r s o n i s n o m o r e s e i z e d w h e n
h e’ s d et ai n e d t o a w ait p r o s e c uti o n f o r
s e v e r al c h a r g e s t h a n if h e w e r e s ei z e d f o r
j u st o n e v ali d c h a r g e. I n t h e e n d, t h e r e’ s
n o p ri n ci pl e d r e a s o n f o r t r e ati n g a
F o u rt h
A m e n d m e nt
m ali ci o u s p r o s e c uti o n cl ai m diff e r e ntl y t h a n a
F o u rt h A m e n d m e nt f al s e- a r r e st cl ai m.
A p p. 1 3. (f o ot n ot e o mitt e d) T h e m aj o rit y’ s a s s e s s m e nt
mi s s e s f u n d a m e nt al di sti n cti o n s b et w e e n t h e t w o
cl ai m s t h at t hi s C o u rt a n d ot h e r ci r c uit s h a v e
r e c o g ni z e d.
T h e m aj o rit y ’ s a s s e rti o n t h at f al s e a r r e st a n d
m ali ci o u s p r o s e c uti o n cl ai m s b o t h “ hi n g e” o n a n
u nl a wf ul s ei z u r e di v e r g e s f r o m h o w t hi s C o u rt h a s
c h a r a ct e ri z e d t h e m : f al s e a r r e st cl ai m s c o n c e r n
d et e nti o n wit h o ut l e g al p r o c e s s a n d p ri m a ril y a d d r e s s
t h e l a wf ul n e s s of t h e i niti al s ei z u r e; m ali ci o u s
p r o s e c uti o n cl ai m s , o n t h e ot h e r h a n d, c o n c e r n
u nl a wf ul d et e nti o n pl u s t h e “ w r o n gf ul i n stit uti o n of
l e g al p r o c e s s.” W all a c e , 5 4 9 U. S. at 3 9 0.
T hi s C o u rt h a s h el d t h at t h e p r o b a bl e -c a u s e -t oa r r e st i n q ui r y f o r f al s e a r r e st cl ai m s i s b a s e d o n
w h et h e r t h e f a ct s k n o w n b y t h e a r r e sti n g offi c e r at t h e
ti m e of a r r e st o bj e cti v el y p r o vi d e d p r o b a bl e c a u s e t o
a r r e st. D e v e n p e c k v. Alf o r d , 5 4 3 U. S. 1 4 6, 1 5 3 ( 2 0 0 4).
T h u s, f al s e a r r e st cl ai m s hi n g e o n a n all e g e d u nl a wf ul
s ei z u r e. B ut m ali ci o u s p r o s e c uti o n cl ai m s hi n g e o n t h e
u nl a wf ul c o m m e n c e m e nt of l e g al p r o c e s s. W all a c e ,
5 4 9 U. S. at 3 8 9 – 9 0. A n d t h e q u e sti o n of w h et h e r
p r o b a bl e c a u s e s u p p o rt s t h e i niti ati o n of a l e g al
p r o c e s s c o m p ri s e d of m ulti pl e c h a r g e s n e c e s s a ril y

36
t u r n s o n t h e v ali dit y of e a c h c h a r g e. J o h n s o n , 4 7 7
F. 3 d at 8 5; s e e al s o W a ll a c e, 5 4 9 U. S. at 3 9 0.
T h e p a n el m aj o rit y’ s r e a s o ni n g al s o i g n o r e s t h e
m y ri a d a d diti o n al r e a s o n s t o t r e at t h e t w o cl ai m s
diff e r e ntl y. S e e A p p. 2 5 – 2 9. A s v a ri o u s ot h e r ci r c uit s
h a v e r e c o g ni z e d, n ot c o n d u cti n g a c h a r g e -b y -c h a r g e
a n al y si s f o r m ali ci o u s p r o s e c uti o n cl ai m s w o ul d
p e r mit offi c e r s t o c h a r g e t h e a c c u s e d wit h m o r e c ri m e s
t h a n p r o b a bl e c a u s e s u p p o rt s . P o s r , 9 4 4 F. 2 d at 1 0 0.
It f ail s t o r e m e d y t h e h a r m s w h e n a n a c c u s e d i s
r e q ui r e d t o i n v e sti g at e a n d d ef e n d a g ai n st m e ritl e s s
c h a r g e s . H ol m e s , 5 1 1 F. 3 d at 6 8 3. An d it w o ul d
i n c r e a s e “t h e c o st a n d p s y c hi c t oll of t h e p r o s e c uti o n
o n t h e a c c u s e d.” I d .; s e e al s o W all a c e , 5 4 9 U. S. at 3 9 0
( d a m a g e s f o r a m ali ci o u s p r o s e c uti o n cl ai m a r e b a s e d
o n t h e a b u s e of j u di ci al p r o c e s s a n d n ot t h e d et e nti o n
it s elf).
T h e p a n el m aj o rit y’ s f u n d a m e nt al p r e mi s e —
t h at “t h e r e’ s n o p ri n ci pl e d r e a s o n” f o r t r e ati n g
m ali ci o u s p r o s e c uti o n a n d f al s e i m p ri s o n m e nt cl ai m s
diff e r e ntl y — di s r e g a r d s
t hese
p ri n ci pl e s
and
i m p r o pe rl y c o nfl at e s t h e t w o “ e nti r el y di sti n ct” l e g al
cl ai m s. T h e l o w e r c o u rt’ s l o gi c c o nfli ct s wit h t hi s
C o u rt’ s p r e c e d e nt a n d w a s a “ p r e c e d e nt -s etti n g e r r o r”
t h at w a r r a nt s t hi s C o u rt’ s r e vi e w. A p p. 6 7.
C O N C L U SI O N
T h e p etiti o n f o r a w rit of c e rti o r a ri s h o ul d b e
g r a nt e d.

37
R e s p e ctf ull y s u b mitt e d,
A. I F I L L
Di r e ct o r -C o u n s el
J A N A I S. N E L S O N
S A M U E L S PI T A L *
N A A C P L E GAL D EF E NS E &
E D U C A TI O N A L F U N D , I N C .
4 0 R e ct o r St., 5t h Fl o o r
N e w Y o r k, N Y 1 0 0 0 6
( 2 1 2) 9 6 5-2 2 0 0
S

H E R RI L Y N

C H RI S T O P H E R K E M MI T T
M A H O G A N E D. R E E D
N A A C P L E GAL D EF E NS E &
E D U C A TI O N A L F U N D , I N C .
7 0 0 1 4t h St ., N W S uit e 6 0 0
W a s hi n gt o n, D C 2 0 0 0 5
( 2 0 2) 6 8 2-1 3 0 0
N o v e m b e r 5, 2 0 2 0

J A M E S L. H A R DI M A N , E S
3 6 1 5 S u p e ri o r A v e n u e ,
S te . 3 1 0 1 -D
Cl e v el a n d, O hi o 4 4 1 4 4
C o u n s el f o r P etiti o n e r.
* C o u n s el of R e c o r d
A d mi s si o n P e n di n g

Q

